<html>
<title> - U.N. PEACEKEEPING: OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[Senate Hearing 110-734]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-734
 
            U.N. PEACEKEEPING: OPPORTUNITIES AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2008

                               __________

       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
47-434 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                     BILL NELSON, Florida, Chairman

RUSSELL D. FEINGOLD, Wisconsin       DAVID VITTER, Louisiana
ROBERT MENENDEZ, New Jersey          GEORGE V. VOINOVICH, Ohio
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming, prepared 
  statement......................................................    11


Durch, Dr. Bill, senior associate, Henry L. Stimson Center, 
  Washington, DC.................................................    28

      Prepared statement.........................................    51


Hook, Brian H., Acting Assistant Secretary, Bureau of 
  International Organizations, Department of State, Washington, 
  DC.............................................................     3

      Prepared statement.........................................     3


Nelson, Hon. Bill, U.S. Senator From Florida, opening statement..     1


Schaefer, Brett D., Jay Kingham Fellow in International 
  Regulatory Affairs, Heritage Foundation, Washington, DC........    27

      Prepared statement.........................................    41


Soderberg, Hon. Nancy, distinguished visiting scholar, University 
  of North Florida, Jacksonville, FL.............................    24

      Prepared statement.........................................    38


Vitter, Hon. David, U.S. Senator from Louisiana, prepared 
  statement......................................................     9


              Additional Material Submitted for the Record

Additional questions submitted for the record to Acting Assistant 
  Secretary of State Brian Hook by Senator Richard G. Lugar......    56

                                 (iii)

  


                   U.N. PEACEKEEPING: OPPORTUNITIES 
                             AND CHALLENGES

                              ----------                              


                        WEDNESDAY, JULY 23, 2008

                           U.S. Senate,    
  Subcommittee on International Operations 
                                        and
         Organizations, Democracy and Human Rights,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Nelson, 
chairman of the subcommittee, presiding.
    Present: Senators Bill Nelson, Vitter, and Barrasso.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. The hearing of the Senate Foreign 
Relations Subcommittee on International Operations and 
Organizations, Democracy and Human Rights will now come to 
order.
    Today we are going to examine the United Nations 
peacekeeping challenges and opportunities, and we are going to 
have a focus on the role of the U.S. support for U.N. 
peacekeeping.
    We have two panels. On the first panel, Acting Assistant 
Secretary Brian Hook, who heads the Department of State's 
Bureau of International Organizational Affairs, will offer his 
expertise and the administration's perspective on the current 
U.S. role in U.N. peacekeeping.
    And then in the second panel, we are going to be joined by 
a group of experts. Mr. Brett Schaefer is the Jay Kingham 
Fellow in International Regulatory Affairs at the Heritage 
Foundation. Dr. Bill Durch is a senior associate at the Henry 
Stimson Center and authored an analysis of the implementation 
of the U.N.'s Brahimi Report on Peacekeeping Reforms. We will 
also be joined by Ambassador Nancy Soderberg, who is currently 
a distinguished visiting scholar at the University of North 
Florida in Jacksonville. She served as Alternate Ambassador to 
the U.N. during the Clinton administration and recently 
published a book, ``The Prosperity Agenda: What the World Wants 
From America and What We Need in Return.''
    Today's hearing is particularly timely since this is the 
60th anniversary of the founding of U.N. peacekeeping 
operations. U.N. peacekeeping has developed over time, helping 
to create conditions for peace, conditions for stability in 
countries that are torn by conflict. And there have been a 
total of 63 U.N. peacekeeping operations since 1948. Today 
there are 17 ongoing. And over the past 10 years, the number of 
U.N. peacekeepers deployed around the world has increased 
almost fivefold, to over 110,000, military and civilian, 
serving in the field today.
    Now, the U.N. Security Council has mandated several new 
missions now in Chad, Sudan, Cote d'Ivoire, Liberia, Haiti, 
Timor-L'este, and Darfur, and all of those in the past 5 years 
alone.
    But the budget requests have not kept pace with the growth 
in missions. For example, the President had requested $1.5 
billion in the fiscal year 2009 budget to pay for our U.N. 
peacekeeping bill, but we know that the cost of our 
contribution to the U.N. peacekeeping in 2008 will be at least 
$1.7 billion. So assuming a larger bill even in 2009, with the 
demands on the mission in Darfur and other missions, these low 
requests put us on a perpetual state of arrears in the United 
Nations, making the operations difficult for the Department of 
Peacekeeping Operations since we in the United States pay 
almost 27 percent of its budget.
    The significant increase in the U.N. peacekeeping missions 
in recent years signals a growing confidence in the capacity of 
the United Nations and a willingness by Member States, 
especially the United States, to help solve conflicts by 
international cooperation and global burden-sharing. However, 
this rapid expansion has created significant political and 
operational challenges for the U.N. Department of Peacekeeping 
Operations in standing up U.N. operations.
    In the aftermath of the U.N. experiences in Somalia and 
Rwanda in the 1990s, the U.N.'s Brahimi Report, which offered 
recommendations on improving the efficacy of U.N. peacekeeping 
activities, concluded that U.N. peacekeepers can only be 
deployed where there is a peace to keep. Yet, this month in 
Darfur, eight peacekeepers were ambushed and killed by 
Khartoum's government-backed militias, and the African Union-
United Nations peacekeeping force is now mired in problems, 
including a drastic shortage of troops and necessary equipment. 
And this is just on the eve of its 1-year renewal.
    It is critical that the United Nations address the serious 
problems of corruption and sexual misconduct by U.N. 
peacekeepers. In 2007, there were approximately 127 reported 
cases of sexual misconduct by U.N. peacekeepers out of over 
100,000 in the field. Now, that is an unacceptable number. We 
must hold the United Nations to the highest standards of 
accountability in investigating these abuses and making 
systematic changes to prevent these crimes from occurring 
again.
    Yet, with all the challenges and difficulties, the 
importance of U.N. peacekeeping to the U.S. national security 
agenda is significant.
    Did you have a statement for Senator Vitter?
    Senator Barrasso. I do not, Mr. Chairman.
    Senator Bill Nelson. All right. What we are going to do is 
we are going to put our witness' written statement, Mr. 
Secretary, in the record.
    Senator Bill Nelson. What we will do is we will just get 
right on into the questions. I am certainly accommodating to my 
colleague if he would like to go first.
    Senator Barrasso. Thank you very much, Mr. Chairman. Go 
ahead.
    Senator Bill Nelson. Mr. Secretary, the first two 
peacekeeping missions deployed by the United Nations in the 
Middle East in 1948 and then again in India and Pakistan in 
1949 still operate today. Why is the United Nations keeping 
these operations ongoing in these missions?

STATEMENT OF BRIAN H. HOOK, ACTING ASSISTANT SECRETARY, BUREAU 
     OF INTERNATIONAL ORGANIZATIONS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Hook. Thank you, Mr. Chairman, first of all, for 
holding the hearing.
    When I joined the Department and went into International 
Organizations, I too--you know, when you start surveying the 
peacekeeping operations and you see ones that have been on the 
books since 1948 in the case of UNTSO in Palestine and UNMOGIP, 
it is fairly unsettling when you see it. It is just hard to 
imagine that we have had a presence there for that long.
    In Palestine, we only have 153 military observers there, 
and we hear from folks on the ground that it does provide a 
stabilizing presence. We do look to the views of the people on 
the ground there. I cannot imagine President Bashir would say 
UNAMID is a stabilizing presence in Darfur, but in the case of 
UNMOGIP and also in UNTSO, we hear that it is making a 
difference.
    In the case of India and Pakistan, it is there to observe 
and report if there are any cease-fire violations. Its mandate 
is going to come close to expiring when we can resolve the 
problem of Kashmir. But it does help to keep the parties 
honest. And some of these peacekeeping operations are tied to 
political disagreements that go back for decades. But when the 
parties on the ground say that it is making a difference, it is 
helping--and they are not a lot of people--we think this may be 
a small price to pay in light of the benefits that we hear that 
it is helping dialogue, it is keeping the parties honest, so it 
can be useful.
    But I know that the optics of it are difficult because they 
have been around. I mean, 1948, 1949--it is just amazing these 
folks can argue over an issue for that long, but that is where 
we are.


    [The prepared statement of Mr. Hook follows:]

   Prepared Statement of Brian Hook, Acting Assistant Secretary for 
International Organization Affairs, Department of State, Washington, DC

    Mr. Chairman, thank you for inviting me to address this 
subcommittee today on the topic of our support for United Nations 
peacekeeping operations and our efforts to help them become more 
effective instruments to promote peace, stability, and reconciliation 
in some of the world's most difficult conflicts. The administration 
seeks to work in close partnership with Congress in addressing the many 
challenges the United Nations peacekeeping operations face today. In 
today's testimony, I will discuss trends in peacekeeping, the 
challenges of peacekeeping, and the lessons we have learned from them, 
and how our efforts to improve U.N. peacekeeping have led to 
significant, hard-won successes in countries such as Haiti, Liberia, 
and the Democratic Republic of Congo. I will also discuss the many 
ongoing challenges that still hinder U.N. peacekeeping operations and 
impede them from becoming fully effective, most prominently the UNAMID 
operation in Darfur. But even when facing significant challenges, it is 
clear that U.N. peacekeeping operations not only contribute to the 
prevention or mitigation of conflict and the resulting protection of 
civilians, but also provide good value for the U.S. in sharing the 
burden to respond to peacekeeping needs and requirements around the 
globe.
    United Nations peacekeeping serves the United States national 
interest. While we have a stake in the outcome of events in virtually 
every region of the world, there are many conflicts in which our direct 
military intervention would not be appropriate or effective. United 
Nations peacekeeping provides an important alternative. U.N. 
peacekeeping missions engage and commit the international community to 
seek solutions to these conflicts. By partnering with the U.N., we 
share the burden and the costs of peacekeeping missions, even as we 
continue to use our leadership in the Security Council to shape their 
mandates, and to strive to make them as effective as possible.
    In recent years, peacekeeping operations have expanded rapidly in 
size, complexity and scope. Since 2001, the number of authorized 
peacekeepers has nearly tripled, from under 40,000 to almost 120,000, 
as the Security Council has authorized large missions in Liberia, the 
Democratic Republic of Congo, Haiti, Cote d'Ivoire, Lebanon, Southern 
Sudan, and Darfur. Peacekeeping operations have taken on complex new 
tasks. Traditional peacekeeping operations, such as the longstanding 
operations in Cyprus or Kashmir, consist mainly of blue-helmeted troops 
monitoring a green line or buffer zone between the parties to a 
conflict. In another example, part of the mandate of the UNIFIL 
operation in Lebanon, established in 2006 by resolution 1701, is to 
play such a role, but its mandate also includes other activities like 
facilitating humanitarian access, and assisting the Government of 
Lebanon to extend its control over its territory and to secure its 
borders.
    In recent years, peacekeeping operations have tended to become more 
complex. In operations in Liberia, Haiti, East Timor, Cote d'Ivoire and 
the Democratic Republic of Congo, cease-fire implementation has been 
only the first of a peacekeeping mission's many tasks, which may also 
include: Facilitating the demobilization, disarmament, and 
reintegration of ex-combatants; providing logistical and security 
support to elections; helping a post-conflict government reform its 
security sector and other governing institutions; even supporting 
operations by the national security forces against recalcitrant militia 
factions or criminal gangs. U.N. peacekeeping operations are 
increasingly multidimensional, integrating military and police 
components with expert civilian technical assistance. This dramatic 
expansion in peacekeeping efforts has presented new opportunities for 
the international community to assist local populations as they end 
dangerous conflicts, promote reconstruction, and build lasting 
reconciliation. However, we must also acknowledge that this expansion 
has resulted in unprecedented demands on the U.N. Secretariat, on troop 
contributing countries, and on the Member States that share the cost of 
peacekeeping assessments.
    We have learned some important lessons from our experience with 
peacekeeping. One lesson is simply that peacekeeping is challenging. 
Peacekeepers have always had to contend with shattered infrastructure 
and hostile operating environments. The new multidimensional operations 
have additional layers of complexity. For such operations to be 
successful, many military, police, and civilian components must work 
together effectively--in particular, the parties to a conflict must 
learn to cooperate with the mission, however much they mistrust each 
other. In Sudan's Darfur province, the environment is not permissive 
and some of the parties to the conflict have not cooperated with the 
multidimensional operation UNAMID. This, and UNAMID's difficulty in 
coordinating among its own components have caused the operation to 
struggle.
    Another lesson we have learned is that successful peacekeeping and 
reconciliation can take a long time and require a sustained commitment; 
setbacks are to be expected. The peacekeeping operation that began 
almost a decade ago in the Democratic Republic of Congo monitored an 
uneasy cease-fire among a plethora of foreign troops and domestic 
militias. Since that time, U.N. peacekeepers have assisted with the 
democratic election of the current government, the demobilization of 
ex-combatants, and the stabilization of much of the country. Even after 
so many years, however, the peacekeepers still must contend with armed 
groups that threaten to renew conflict in the eastern portion of the 
country.
    By far the most important lesson is that peacekeeping can be an 
effective tool to help war-shattered countries make the transition from 
war to peace; peacekeeping can help traumatized people to rebuild their 
governing institutions, economies, and futures. Liberia stands as an 
example of successful multidimensional peacekeeping. The conflict in 
Liberia caused devastation and chaos--a nonfunctioning government, 
shattered infrastructure, and no trace of law and order. The UNMIL 
peacekeeping operation and its predecessors provided a framework of 
security and technical assistance as Liberians rebuilt their country 
and their government from the ground up. Today, UNMIL continues to 
assist the democratically elected government of President Ellen Johnson 
Sirleaf to restore law and order and rebuild Liberia. Peacekeeping has 
also had successes in Haiti, where a multidimensional peacekeeping 
force has broken criminal gangs and helped train and mentor Haitian 
security forces, providing a security umbrella for the political 
process. While Haiti's political impasse is far from resolved, the 
dispute is now conducted peacefully through the political system. In 
Timor-Leste and later in Kosovo, peacekeeping has sheltered newly 
independent countries while they built their own governing institutions 
from the ground up.
    Peacekeeping may be difficult and fraught with challenges, but it 
is well worth our efforts to collaborate with our U.N. partners to make 
peacekeeping operations more effective and to make them work better. 
Many people in countries such as Haiti, Liberia, Kosovo, Timor-Leste 
and Congo, who once feared the scourge of war, can now look forward to 
rebuilding their future. They surely would agree that it is worth the 
international community's efforts to make peacekeeping work.
    While we can be pleased with the many successes of U.N. 
peacekeeping, we also must recognize and learn from the challenges that 
still hinder some peacekeeping operations, most notably the UNAMID 
operation in Darfur. UNAMID's difficulties in reaching full deployment 
and operational effectiveness are well-known, and exemplify many of the 
constraints facing the United Nations and African Union during this 
period of extraordinary growth in peacekeeping. Understanding these 
problems is the first step to working with our partners to improve the 
effectiveness of UNAMID and of other important peacekeeping operations.
    One important constraint is cost. U.N. peacekeeping assessments 
have increased as peacekeeping has expanded, and all Member States are 
feeling the strain. Our payments for U.N. peacekeeping assessments have 
escalated from $1.022 billion in FY06, to $1.4 billion in FY07. We 
estimate our FY08 payments could reach $2 billion. Assessments for 
UNAMID, a massive operation with major startup costs this year, will be 
a significant proportion of those costs. We are grateful for the 
supplemental funding that will enable us to make payments for UNAMID 
assessments during fiscal year 2008 and 2009.
    Force generation has become another significant constraint to U.N. 
peacekeeping. With record numbers of blue-helmeted personnel already in 
the field, troop contributors are struggling to meet the requirements 
for large new multidimensional operations such as UNAMID. Certain 
specialized units are in short supply. To date, no troop contributing 
country has come forward with pledges for force multipliers such as the 
helicopter units that UNAMID needs to be fully effective. Pledges for 
other key units, including heavy transportation, engineering units and 
especially formed police units have so far fallen short of UNAMID's 
needs. We are supporting the U.N.'s effort to generate troop 
contributions for UNAMID with our own diplomatic outreach to countries 
that might pledge these important missing assets. We have active 
discussions underway with potential troop and formed police unit 
contributors as we explore options for U.S. assistance to upgrade their 
equipment so it meets UNAMID's requirements.
    Many countries that are willing to participate in UNAMID need 
assistance in training and equipping their troops to a level that meets 
U.N. operational standards, with transporting their troops to the area 
of operations, or with sustaining their troops in the field once they 
arrive. The United States has extensive bilateral assistance programs 
to train and equip peacekeeping troops, especially African ones. We 
administer this assistance through programs such as the Global 
Peacekeeping Operations Initiative and its African Contingency 
Operations Training and Assistance program, commonly referred to as 
GPOI and ACOTA. Earlier this year President Bush announced a $100 
million plan to provide equipment and training to an additional 6,000 
African soldiers for deployment to UNAMID. Since then we have initiated 
``train and equip'' programs for three infantry battalions from Rwanda, 
and one infantry battalion each from Ethiopia and Senegal. When these 
programs are completed in August, we will launch a new round of train-
and-equip programs for UNAMID participants, with troops from Burkina 
Faso and Tanzania. We continue to provide substantial bilateral 
military assistance to countries who contribute peacekeeping troops to 
UNAMID and to other peacekeeping operations worldwide. Over the past 5 
years, the United States has spent over $800 million in such direct and 
indirect support to multilateral peacekeeping.
    UNAMID's structure--to date unique--as a hybrid United Nations-
African Union operation has proven to be another constraint. Before the 
U.N. Security Council established UNAMID, the African Union 
multinational force AMIS had deployed to Darfur, with significant 
assistance from the U.S. and other donors. In July 2007, the U.N. 
Security Council adopted Resolution 1769 to establish UNAMID. 
Resolution 1769 specified that UNAMID was to incorporate the AMIS 
troops, and deploy certain specialized logistical, engineering, and 
transportation units that would lay the groundwork for deployment of a 
much larger UNAMID force prior to the final transfer of authority from 
the AU to the U.N. on December 31, 2007. However, the dual command 
structure proved cumbersome and difficult to manage in practice; 
furthermore, most of the specialized units were not ready to deploy in 
the timeframe specified. Sudan's membership in the African Union gave 
it leverage over the terms of the hybrid operation's deployment. Sudan 
used this leverage to insist that UNAMID be a predominantly African 
operation and that the African units deploy first, even when 
specialized and urgently needed non-African units were ready to deploy. 
This hybrid structure clearly impacted UNAMID's effectiveness.
    Increasingly, peacekeeping is constrained by the limited capacity 
of the U.N. Secretariat, which further complicates the problem of 
generating forces and deploying forces quickly to peacekeeping 
operation in the field. The Department of Peacekeeping Operations, 
which has traditionally coordinated peacekeeping has simply been unable 
to expand its personnel, planning, and logistical capacity quickly 
enough to keep pace with the rapid growth in peacekeeping. We strongly 
support the ongoing restructuring of the U.N. Secretariat, including 
the establishment of a new ``Department of Field Support'' to help 
support peacekeeping, and authorization of over 400 new staff positions 
related to peacekeeping at U.N. Headquarters. The effort to reform the 
U.N. Secretariat and increase its capacity to deploy complex 
peacekeeping operations is still a work in progress. It will take time 
for the Secretariat to incorporate the new personnel and procedures. In 
the meantime, the United States will support force generation through 
its diplomatic efforts to rally troop contributors, and its assistance 
to train and equip them to an effective standard.
    One additional constraint on effective U.N. peacekeeping bears 
particular mention, and we must continue to take the necessary measures 
to address and prevent it. Sexual exploitation and abuse of women and 
children is prevalent in far too many conflict situations in which U.N. 
peacekeepers are present. In most of these cases, regular troops, 
militias, and rebels are the perpetrators and use rape as a weapon of 
war. In some particularly shocking cases, U.N. peacekeepers are accused 
of perpetrating sexual exploitation and abuse, preying on the very 
people they are to protect. The United States has led international 
efforts to eliminate sexual abuse and exploitation by U.N. staff. With 
our strong encouragement, the United Nations has instituted a wide 
range of preventive and disciplinary actions to carry out its policy of 
zero tolerance toward sexual exploitation and abuse by military, 
police, or civilian personnel. Sexual abuse is unacceptable; especially 
when the protectors become the perpetrators.
    One of the greatest challenges for effective peacekeeping is 
matching a mandate, its authorities, and its associated rules of 
engagement with the requirements in theater. Empowering a mission to 
respond appropriately and effectively to the conflict situation is 
critical. The mandate is potentially either the greatest constraint or 
the greatest contributor to an operation's success. The United States 
uses its leadership in the U.N. Security Council to shape peacekeeping 
mandates that are clear, credible, and defined to what is achievable. 
That said, there is no simple, one-size-fits-all formula for designing 
effective peacekeeping mandates.
    As a case in point, we can look to the three peacekeeping 
operations established to deal with the interrelated conflicts in Chad 
and Sudan. The MINURCAT operation in Chad is primarily a police 
operation, charged with protecting vulnerable civilians who have fled 
from the subregion's conflicts; troops from the European Union 
operation EUFOR provide force protection to MINURCAT, and secure a safe 
haven in eastern Chad. MINURCAT has no mandate to resolve the 
underlying conflicts in the region, but only to mitigate their effects. 
As MINURCAT deploys, it is on track to succeed in its limited, but 
vital goal of protecting vulnerable civilians. In Sudan, UNMIS is a 
complex multidimensional operation, charged with facilitating the 
implementation of the Comprehensive Peace Agreement that ended two 
decades of civil war between the north and the south. The peace process 
is fragile. We can expect implementation of the Agreement's many 
provisions to be slow, and often contentious. Fostering reconciliation 
will be a long-term effort. UNMIS has a distant goal, but with the 
continued support of the international community and of the parties 
themselves, it is achievable. The third operation is UNAMID, in Sudan's 
troubled Darfur province. Like MINURCAT, UNAMID has a mandate to 
protect vulnerable civilians, and, like UNMIS, it has a mandate to 
support a peace process. However, Darfur today is deeply factionalized 
and the Government of Sudan has not yet demonstrated its willingness to 
cooperate with UNAMID or to facilitate its objectives. These factors 
clearly complicate UNAMID's ability to carry out its mandate. Ideally, 
the peacekeeping operation would deploy only after a peace process is 
well underway, and all of the parties view the peacekeepers as welcomed 
partners in implementing a settlement. However, the brutal conflict in 
Darfur has caused appalling human suffering on a truly massive scale, 
with new fighting and displacements occurring regularly. Suffering 
people in such a desperate situation cannot wait for a political 
process to mature. For this reason, we support a two-pronged policy for 
Darfur--to facilitate UNAMID's rapid deployment, while simultaneously 
promoting the peace process.
    Mr. Chairman, in my testimony, I have been able to touch only 
briefly on the many important dimensions of U.N. peacekeeping. These 
issues could be usefully explored in much greater depth. I stand ready 
to respond in detail to any further questions from the committee.

    Senator Bill Nelson. Look at a place like Somalia. Do you 
think we are going to get around to a U.N. peacekeeping force 
there?
    Mr. Hook. You would have to have the right conditions, sir. 
The Security Council has, on three separate occasions, 
expressed an interest in looking at follow-on operations to 
AMISOM. In the case of Somalia, there are not many good 
options. It is sort of the least bad option. In light of the 
fighting, in light of the unrest that has been going on there 
since the overthrow of the regime, the Security Council is 
interested in looking at contingency operations. What would 
they look like?
    The Secretary General a few months ago came back with some 
options. The Security Council did not think they were in enough 
detail, and so they asked him to go back to the drawing board 
and come back with more information. We were expecting that 
report in mid-July. We still do not have it. I think probably 
the smartest thing to do is wait to see what we get back from 
the Secretary General and look at what--you know, he has a 
special representative there, SRSG Abdullah. AMISOM is there.
    I was involved--I negotiated the resolution in New York 
that authorized AMISOM. It is an issue of particular interest 
to me, and it is also a very sensitive issue in light of what 
happened, you know, the deaths of America soldiers in 
Mogadishu. So all of these things are very much in our minds as 
we look at options.
    We have been very pleased with the--I think you may have 
seen the Security Council passed a resolution on piracy to try 
to combat it. We did that. That was a U.S. resolution. Canada 
has since announced that it is going to be sending some 
battleships into the waters. We have a presence there. There 
may be a way to take--we are seeing a little bit of an 
incremental approach. You know, address piracy, you know, make 
some gains there. Right? And convey a presence there that does 
not put people in harm's way. But I think we need to be very, 
very careful and we need to be very smart about it.
    We will have to wait and see what the Secretary General 
comes back with, and then I think we look forward to just 
talking about it with you and your staff and seeing what sort 
of ideas come back.
    Senator Bill Nelson. The military force that is there, 
other than the Ethiopian troops, are what?
    Mr. Hook. It is an AU force. It is the AMISOM, African 
Union mission in Somalia. It is a tough mandate. It is a very, 
very, very difficult environment to operate in.
    Senator Bill Nelson. It is kind of a no man's land. Is it 
not?
    Mr. Hook. Well said, yes. It is a no man's land.
    The council is focused on it. I do not think it is 
suffering from inattention, and I think the fact that the 
council has three times gone to the Secretary General and asked 
for more information reflects the kind of commitment to make 
some progress there. And the fact that they passed that 
resolution on piracy was a real good step, but as I said, there 
are no good options.
    Senator Bill Nelson. Well, now, one area that there has 
been some progress is the U.N. mission in Haiti.
    Mr. Hook. Yes.
    Senator Bill Nelson. How long do you think the U.N. 
peacekeeping mission will stay there--the forces?
    Mr. Hook. We have a long-term commitment to Haiti. 
Yesterday I placed a call to Mr. Annabi, who is heading 
MINUSTAH, to get a report from him. He was in Geneva, and so I 
spoke with his deputy. They are going to be filing a report. I 
think their renewal is up in October. They are finishing their 
report for the Security Council. They will probably have it 
done in September. They are going to ask for a 1-year renewal. 
You may remember the council was doing 6-month renewals on 
Haiti. We pushed to have a 1-year renewal and we got it. That 
shows a long-term commitment there.
    I think MINUSTAH has been a success story. I think it has 
transitioned from a military force to really doing a lot with 
police. And we are seeing certainly improvements.
    The United States has 50 police officers serving with 
MINUSTAH, and we are trying to root out corruption. I think you 
know the $20 million that we gave to focus on Cite Soleil led 
to 1,000 arrests. When I talked with the deputy head of 
MINUSTAH yesterday, he said that made a real difference. And in 
April, when we had the food riots, I think if you would have 
asked people if there was rioting, where would it be--sort of 
the flash point, it would probably have been in Cite Soleil. 
There were no riots. So our aid there and I think our focus and 
our commitment has made a difference.
    The kidnappings are down.
    I know that the absence of a Prime Minister and a 
functioning government--when I spoke to the MINUSTAH deputy 
yesterday, he said it is having a severe negative impact. We 
are very hopeful that they get out of this position and get a 
prime minister named and have a functioning government.
    Senator Bill Nelson. Are we going to be able to still make 
ends meet with the rising cost of fuel?
    Mr. Hook. Well, this is part of the difficulty of the 
budgeting. There are so many variables that go into this, and 
some of these factors are outside of our control in terms of 
parties to the conflict, whether they decide to become more 
belligerent and adversarial, rising costs of food, the weak 
dollar, the cost of oil. There are a number of factors that 
play into this.
    But I know that we are very committed to Haiti and we think 
we are making a lot of progress there. And I think we should 
continue. MINUSTAH is trying to further democracy. It is trying 
to create the kind of conditions that we are going to see 
better economic growth. It is helping on the humanitarian 
assistance side. It played a role during the food riots that we 
saw there.
    When I was up in New York at the U.S. mission, Hedi Annabi 
was the number two in DPKO. So I worked a lot with him, and 
from all accounts, he is doing a good job in Haiti.
    Senator Bill Nelson. The Senator from Wyoming?
    Senator Barrasso. Thank you very much, Mr. Chairman. I have 
a statement, if I could just include it in the record.
    Senator Bill Nelson. Without objection, as will be the 
statement by the Senator from Louisiana.


    [The prepared statements of Senator Vitter and Senator 
Barrasso follow:]

  Prepared Statement of Hon. David Vitter, U.S. Senator From Louisiana

    Thank you, Mr. Chairman for holding this important hearing today.
    The issue of U.N. reform, and the need to demand greater 
accountability and stronger results from an organization to which we 
provide billions in funding, resources, and personnel, is one of great 
importance. As ranking member of this subcommittee, I have repeatedly 
called for greater American oversight of the U.N.'s functions. This is 
particularly true regarding the U.N.'s peacekeeping apparatus, which 
has a separate budget, includes two full departments, and involves tens 
of thousands of personnel. I welcome the chance to shed some light on 
the peacekeeping process and examine whether the latest round of 
reforms have decreased the number of instances of waste, fraud, and 
abuse, or if we need to further reassess our policy toward U.N. 
peacekeeping.
    Sadly, the end of the cold war almost 20 years ago has not brought 
about the peace and prosperity for all countries as we might have 
hoped. Today, there are too many countries in distress or in conflict 
or on the edge of failing. And, as we have learned, failed states are a 
threat to our own national security as well as to regional and global 
stability. The knee-jerk response to troubled states by the U.N. and 
the international community has increasingly been to send in U.N. 
peacekeepers. As a result, millions of people now rely on the U.N. and 
its peacekeepers to provide the stability and support necessary to put 
their countries on the road to peace and recovery. The United States 
itself has invested significant resources and funding in U.N. 
peacekeeping. Therefore, it is our responsibility to ensure that 
American time, energy, and resources are utilized in the most effective 
and appropriate manner possible.
    The U.N. has 17 active peacekeeping operations worldwide, located 
in every part of the world including Asia, Africa, Europe, the Middle 
East, and the Caribbean. These operations involve 88,000 uniformed 
personnel representing 117 countries, plus an additional 19,500 U.N. 
volunteers and civilian personnel.
    The U.N. budget for peacekeeping operations, which is a separate 
funding stream from the U.N.'s regular budget, is $7.4 billion for the 
upcoming fiscal year. This is a 10-percent increase over the preceding 
fiscal year. The United States contributes over a quarter of this 
budget, on top of the 22 percent of the regular U.N. budget that it 
contributes annually.
    All of these numbers are just a narrow snapshot of the U.N.'s 
peacekeeping operations, but they do give a good sense of the U.N.'s 
peacekeeping activities' growing significance. In fact, since the end 
of the cold war, the number of U.N. peacekeeping missions has increased 
markedly. For example, from 1945 to 1990, the U.N. Security Council 
established only 18 peacekeeping operations. Yet, from 1990 to today, 
the Security Council has approved 40 new operations, and half of all 
current operations have been approved since 2000.
    The scope and responsibilities of these missions have increased 
dramatically as well. In the post-cold-war environment, peacekeepers 
are more likely to be involved in intrastate conflicts and civil wars, 
where lines of allegiance are blurred and they are not always 
guaranteed to have the acquiescence of all parties involved. This has 
also resulted in an increase in attacks on the peacekeepers. And, even 
as the environment becomes increasingly hostile to the U.N.'s 
peacekeepers, these soldiers find themselves responsible for more than 
just simple border and cease-fire monitoring. In addition to their 
traditional roles, peacekeepers are now also involved in military 
intervention, nation-building, and civilian law enforcement.
    It is important to examine the reasons behind this expansion, to 
make certain that broadening U.N. peacekeepers' responsibilities and 
increasing the size and number of operations is indeed the right 
response to help those countries struggling with the challenges of the 
post-cold-war environment. This is particularly true because, while the 
nature and size of the challenges have changed, the structure 
underpinning the U.N. Department of Peacekeeping Operations has not 
been properly or effectively restructured to meet the new demands and 
challenges. The upshot is that the U.N.'s Department of Peacekeeping 
Operations, struggling to keep up with its expanded mandate, has been 
plagued with scandal within its contract and procurement departments 
and within its operations on the ground.
    The sheer volume of waste, fraud, and abuse in peacekeeping-related 
procurement contracts is staggering. The U.N.'s Office of Internal 
Oversight Services (OIOS), during a recent audit, found at least $265 
million of $1 billion in contracts over a 6-year period was subject to 
waste and abuse. By its own admission, this is just the minimum amount 
tied up in corruption schemes and lost in wasteful practices.
    On the ground, acts of sex exploitation and abuse (SEA) have been 
repeatedly committed by peacekeepers against the very citizens they 
have been sent to protect. Allegations and incidences of SEA, including 
human trafficking, forced prostitution, and rape, committed by U.N. 
personnel have occurred with increasing and disturbing regularity, 
engulfing operations in Bosnia, Burundi, Cambodia, Congo, Guinea, 
Haiti, Kosovo, Liberia, Sierra Leone, and Sudan.
    In addition to engaging in acts of abuse and exploitation against 
local populations, peacekeepers have been accused of selling back 
confiscated weapons to rebels for gold.
    I am very disturbed that it appears the U.N. is incapable of 
addressing the abuses occurring through its peacekeeping operations. 
After a 2006 OIOS audit of peacekeeping accounting found serious 
instances of fraud and waste, the U.N. Department of Management, which 
holds the procurement contract portfolio, and the Department of 
Peacekeeping Operations adopted the majority of the 32 OIOS audit 
recommendations. Yet an OIOS report released early in 2008 revealed 
that the OIOS found that 44 percent of the total $1.4 billion value of 
peacekeeping contracts was tied to corruption schemes.
    Global outrage over sex-related abuses by peacekeepers in 2004 
spurred the U.N. to announce a ``zero tolerance'' policy toward SEA, as 
well as adopt stricter standards for peacekeeping units and their 
contributing countries. After a 2005 report was released by the 
Secretary General's special advisor on SEA, the U.N. General Assembly 
moved to endorse many of the recommendations, some of which have since 
been implemented. Yet despite this flurry of activity, just this past 
May, Save the Children accused aid workers and peacekeepers in Ivory 
Coast, Southern Sudan, and Haiti of sexually abusing young children in 
war and disaster zones. Compounding this crime against the victims, the 
perpetrators were rarely punished.
    Discouragingly, it does not appear that bureaucrats at the U.N. 
understand that abuse of any sort is unacceptable and must be dealt 
with immediately, severely, and in a transparent and publically 
accountable manner. Even the OIOS itself does not appear immune from 
pressures to gloss over fraud and abuse found during audits and 
investigations. After accusations in 2006 that peacekeepers in the 
Congo were involved in a gold smuggling and weapons trafficking scheme 
with Congolese militias, a lead OIOS investigator stated that his team 
was removed from the investigation after they rebuffed attempts by 
officials to influence the outcome. The BBC and Human Rights Watch have 
since provided substantiating evidence that U.N. officials covered up 
evidence of wrong-doing in the Congo.
    And finally, just this past weekend, I read a very disturbing 
report regarding the neutrality and objectivity of U.N. peacekeepers in 
Lebanon as part of the U.N. Interim Force in Lebanon (UNIFIL). 
According to Fox News, during the prisoner exchange between the 
terrorist organization Hezbollah and Israel, U.N. Peacekeepers were 
photographed saluting the coffins of the returned bodies of terrorists, 
as well as a large image of Imad Mughniyeh, a top-ranking Hezbollah 
terrorist killed last February.
    Peacekeepers, in this mission, are supposed to be neutral actors 
put in place to form a buffer between Lebanon and Israel and to disarm 
Hezbollah in southern Lebanon--the very terrorists they were seen 
saluting. It is appalling that U.N. peacekeepers would honor murderers 
and criminal terrorists. I am hardly reassured by the response provided 
by the UNIFIL spokesperson regarding the incident, whose dismissive 
remarks that the salute was simply military tradition only served to 
underscore that the U.N. bureaucrats just do not get it: It is a very 
big problem when soldiers serving under the auspices of the United 
Nations honor terrorists and law breakers and when they break with 
their position of neutrality.
    I know that I do not speak only for myself when I say that I am 
very concerned that American dollars are going to pay these individuals 
and provide them with support when they clearly are not supportive of 
the rule of law, their U.N. mandate, and certainly not the values and 
principles of a free, peaceful, and democratic society. I am very 
interested in hearing from our witness, Acting Assistant Secretary 
Hook, about what the Department of State is doing to address this very 
disturbing event.
    And I am looking forward to hearing from all of the witnesses about 
what they feel would be the best way to address the very serious 
problems of abuse and fraud that persist within the U.N. peacekeeping 
structure despite attempts by the U.N. to ``reform the system'' or 
``police itself.''
    Thank you again, Mr. Chairman, for the opportunity to look into 
this very important matter.


                                 ______
                                 


  Prepared Statement of Hon. John Barrasso, U.S. Senator from Wyoming

    Thank you, Mr. Chairman.
    I would also like to welcome the witnesses.
    The United Nations' peacekeeping efforts are extensive and 
demonstrate the international community's desire to prevent genocide, 
ethnic cleansing, and other atrocities.
    Despite the U.N.'s commendable and essential efforts, U.N. 
peacekeeping operations often lack proper management practices, 
properly trained and equipped personnel, and sufficient resources.
    There are many issues that contribute to the U.N.'s failure with 
peacekeeping efforts, and it is difficult to get nations with different 
ideologies and prioritiees to agree.
    While U.N. bureaucratic red tape contributes to its share of these 
problems, it does not let Member States off the hook for failing to 
work together to find effective solutions.
    The United States has a significant role in contributing funds and 
other resources for peacekeeping operations.
    The U.S. should be a leader in the U.N., but Member States must be 
more willing to implement needed reforms and contribute appropriate 
funds that truly reflect their commitment to support peacekeeping 
operations.
    Congress should demand reforms, accountability, and effective 
participation by Member States.
    Without these changes, the U.N. will be unable to achieve its 
objective to promote peaceful resolutions to conflicts.

    Senator Barrasso. Mr. Chairman, since the topic is U.N. 
peacekeeping opportunities and challenges, what I would like to 
do, rather than to get into some of the specific points around 
the world, just more of an overview, if I could, Mr. Hook.
    When I look at the peacekeeping costs, I see them as being 
kind of unevenly covered by different members of the United 
Nations. I understand the importance of peacekeeping operations 
and the role the United States plays in covering a significant 
part of those costs. Do you believe that the costs of these 
peacekeeping efforts really are fairly configured in how the 
assessments are made? Do the rates that are assessed to each 
country fairly reflect the ability of the Member States to 
contribute to the peacekeeping operations? Are we getting a 
fair deal at this point?
    Mr. Hook. We pay an enormous amount, and this is the 
problem I have seen in the United Nations broadly where the 
United States and Japan together account for almost 40 percent 
of the U.N. budget. We have 192 Member States and there ought 
to be, I think, greater fairness in how these assessments are 
made.
    I think on peacekeeping, the formulas--our assessments are 
very high. We are at $1.7 billion this year, and that is out of 
a $7.1 billion total cost for peacekeeping. It is something 
which I think broadly I would like to see more fairness in 
assessments. I think we end up shouldering a very large burden 
of those.
    And I think as a consequence, it makes us a little more 
vigilant about waste and fraud and profiteering and 
mismanagement. I feel a fiduciary duty to the taxpayer to make 
this work. It has been a lot of my frustration with UNAMID. 
Congo is the largest and most expensive operation. UNAMID is 
likely to overtake that. And if it does, as we were talking 
about earlier, these peacekeeping missions can go on for 
decades and decades. And I think it is very important, as part 
of that fiduciary duty, to make sure that we have mandates that 
are clear, that we have benchmarks for progress, and that when 
those benchmarks are met, there is an opportunity to withdraw.
    Sierra Leone is closed. We have a drawdown for Liberia that 
is underway. We expect to draw down next year in Cote d'Ivoire. 
As I was saying earlier, Haiti has moved from a military 
mission to a peace mission. UNMEE is closed down, not through 
any positive action of the United Nations, but because Eritrea 
kicked out the peacekeepers along the border there.
    Whenever we have these renewals that come up in the council 
for mandates, I think it is imperative--and I have instructed 
my staff to take a very, very hard look at these renewals to 
make sure that if there is an opportunity to drawdown because 
of benchmarks that are being met or because the conditions have 
changed, then we ought to do that because we do pay a lot of 
money in peacekeeping.
    Senator Barrasso. I would also like to discuss the 
effectiveness of U.N. reform. I agree with you that there ought 
to be greater fairness in U.N. assessment payments and how to 
accomplish it. If other Member States were really seeing the 
financial consequences of their decisions, would you feel that 
then they would be more likely to support the reforms you are 
talking about in terms of the waste and the abuse within the 
system? And then how do we accomplish that?
    Mr. Hook. There may be a way to illustrate that. I would be 
open to exploring that. If there is a way to demonstrate to 
them the financial consequences, that may be a way to sort of 
graphically demonstrate how we would like to see more fairness 
in some of this pricing.
    Senator Barrasso. Well, in the past, Congress has used its 
authority to withhold funds from the United Nations in exchange 
for needed reforms. What is your assessment of that? Has it 
been successful? Is that something we need to give serious 
consideration to now?
    Mr. Hook. Well, we have seen the case when we do deploy 
these missions, we have troops in the field. They need to get 
paid. They need the logistical and administrative support.
    The fact of the matter is our assessments are what they are 
right now. And when we fall behind and when we are not making 
our payments in terms of the assessments, it does have an 
effect in the field at the missions, a lot of them that we care 
about. And we need to somehow strike that balance there of 
fairness, but then also not putting the troops that are in the 
field, the peacekeeping operations--and in a case like 
MINUSTAH, we have 50 police who are there helping with policing 
there.
    But I think that troops need to get paid. If they are out 
in the field, they need the logistical and administrative 
support to accomplish their mission. So that is one thing that 
I am sort of sensitive to about if commitments have been made 
and troops have been deployed, then we need to make sure that 
they are getting what they need.
    But I have been in this position now just for less than a 
month, but it is an issue that I want to explore further and 
see if we can make some progress on it.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Bill Nelson. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman. I have a number of 
concerns on this topic, many of which are common to my 
colleagues' concerns, and some of which many not yet have been 
mentioned.
    One issue is the importance of ensuring peacekeeping troops 
always maintain proper impartiality. This has not always been 
the case, and I am especially concerned about a few recent 
instances. Probably the most dramatic, at least according to 
media reports, was a recent instance when U.N. peacekeepers who 
were part of the U.N. interim force in Lebanon saluted the 
coffins of Hezbollah terrorists and saluted an image of a top 
Hezbollah member killed in Damascus in February. What is your 
reaction to that? What is the appropriate U.S. response to 
that?
    Mr. Hook. I saw the picture the day it was released, and I 
thought it was appalling. UNIFIL's credibility depends on its 
impartiality, and when you have pictures being sent around the 
world of it saluting Hezbollah terrorists, that creates a real 
problem for UNIFIL. When I saw it, I sent it around the 
Department and made people aware of it. All we have is the 
picture, but I was deeply troubled by it. I know that 
Ambassador Gellerman, whom I worked closely with up in New 
York, expressed his outrage over it.
    Just today I have received probably as much information as 
I have on the issue. There was a letter that was released to 
the media from UNIFIL which tried to explain what was going on.
    Senator Vitter. I think I read those statements. They 
tended to heighten my concerns not allay them.
    Mr. Hook. Right. Obviously, UNIFIL was asked to help with 
this exchange between Israel and Lebanon, this prisoner 
exchange. UNIFIL is then helping in that capacity, but UNIFIL 
needed, I think, to understand the political sensitivity of 
that situation. And they ought to understand exactly what was 
going on in that case. Now, that was a convoy of what? I think 
eight different vehicles carrying the remains of hundreds of 
people. They have said it is the custom of troops, if there are 
coffins draped with flags, to salute, and it may be the case 
they were saluting the entire convoy.
    But it seems that that sort of skirts the issue of I think 
UNIFIL being sensitive to the importance of its impartiality 
and sort of anticipating exactly the sort of thing that we are 
having to sort of talk about today. I think this is something 
which could have been avoided. It is unclear if--I do not know 
if they knew what they were doing. I do not know. I have not 
interviewed these two soldiers.
    Senator Vitter. I read those statements, and again, they 
heightened my concerns instead of providing any sort of 
reassurance. This is because the statement suggests that the 
peacekeepers did nothing wrong when they saluted Hezbollah 
terrorists and that it was simply tradition. The statement 
completely misses the point that symbols, such as saluiting a 
flag, image, or coffin, conveys a great deal of meaning.
    Mr. Hook. They do. I know.
    Senator Vitter. And for the United Nations or a branch or 
agency of the United Nations to blur the distinctions between 
traditional combatants or soldiers and terrorists is a big deal 
in my mind.
    Mr. Hook. It is.
    Senator Vitter. This is a serious problem.
    Has the State Department, on behalf of all of us, issued 
any formal statement about this or taken any formal action?
    Mr. Hook. I have asked my staff to follow up to find out 
the facts. As I said, I have learned more today. I read some 
communications from our Embassy there. I wanted to have all the 
facts, and then I think once we have our facts, then I think we 
can figure out how to respond appropriately. I share all the 
concerns that you have raised, but part of it is I did not want 
to just, starting with this picture, sort of take some action. 
I wanted to at least find out exactly what was going on there. 
I would have liked to have seen a quicker response I think from 
UNIFIL.
    Senator Vitter. Well, I would ask that you follow up with 
me----
    Mr. Hook. I will.
    Senator Vitter [continuing]. And I am sure the whole 
committee would be interested----
    Mr. Hook. Yes.
    Senator Vitter [continuing]. After you understand all the 
facts. I am not arguing with that, but I would hope that if the 
media reports are confirmed, the State Department would make a 
formal statement and take other appropriate strong and formal 
actions----
    Mr. Hook. I will follow up with you.
    Senator Vitter [continuing]. That go beyond just having a 
conversation with someone.
    Mr. Hook. Yes; I will follow up with the committee and you.


    [The information referred to above follows:]


    Mr. Hook. On instruction from Washington, our Missions raised this 
issue with the U.N. Secretariat in New York, the U.N. Department of 
Peacekeeping Operations, and UNIFIL officials in Lebanon. In these 
discussions we noted these U.N. peacekeepers must be cautioned, and 
that the U.N. must take steps to ensure peacekeepers never give the 
appearance of taking sides in an internal conflict. Rendering honors to 
a terrorist is simply unacceptable.
    Department of Peacekeeping Operations Assistant Secretary-General 
Edmond Mulet confirmed to us that the U.N. was also displeased at this 
occurrence.
    UNIFIL staff were instructed by U.N. Headquarters to be more 
cautious and attentive to detail in the future. UNIFIL and our contacts 
in New York also advised us that the soldiers in the photo were not 
involved in any way in the Lebanese ceremonies, and were carrying out 
their assigned duties along the road used by the convoy as it passed.
    The soldiers are from a western European troop-contributing nation 
whose soldiers, as in most armies, customarily salute whenever mortal 
remains in coffins draped with national colors pass in procession. 
According to the U.N. and UNIFIL, they saluted at their own initiative 
following that tradition; they were reportedly unaware that the coffins 
contained the remains of Hizballah terrorists and that the photo 
displayed was of Mughniyah.


    Senator Vitter. Great. Thank you.
    I also share Senator Barrasso's concern--as I am sure many 
of us do--that the U.S. could do much more to ensure that we 
are effectively leveraging our major participation, 
particularly in terms of funding, to demand reforms. Many of 
the reforms we are talking about are reforms that have been 
already proposed within the United Nations by the Secretary 
General or others, but has not been effectively implemented, if 
implemented at all. How can we better ensure that reform be 
taken seriously at the United Nations and changes and reforms 
be incorporated immediately and effectively by Member 
Countries, U.N. officials, and bureaucrats? And if the answer 
is not withholding funds, what is the answer short of that? A 
lot of us think we need to be more effective at pushing 
reforms. And therefore we are looking for some answers, 
including withholding funds. I would ask if the State 
Department does not want the Senate to withhold funds if 
reforms are not implemented, then we are going to need a good, 
effective alternative.
    Mr. Hook. We do leverage our significant contribution to 
the United Nations. I think you know about our UNTAI 
initiative, the U.N. Transparency and Accountability 
Initiative, that has been a real priority. Getting an ethics 
that is systemwide at the United Nations, promoting internal 
audits--we have got UNTAI ratings now with different missions 
to try to get an assessment of how accountable and how 
transparent they are.
    Transparency and accountability I think are very important 
for the credibility of any institution, particularly the United 
Nations, and in light of the fact that we fund the U.N. more 
generously than any other country in the world, our voice gets 
heard and we do leverage, I think, our deep financial 
commitments to try to achieve the kind of reforms that you are 
talking about. I know on the procurement side, as of October 
2007, we have seen about 47 percent of the reforms implemented.
    I, in my capacity in this position, will keep pressing for 
reforms. Personally it is a priority for me. When I was up in 
New York working with the U.N., I saw firsthand, I think, how 
important it is for the U.N. to be transparent and accountable 
to its donors. And when you have procurement fraud taking 
place, it is very important for allegations to be addressed.
    I know that OIOS has been--their Procurement Fraud Task 
Force we think has been doing pretty good work. Just in the 
short time the task force has been understood up, it has found 
10 fraud schemes, $25 million in misappropriations, and six 
staffers have been charged with misconduct. I think that is 
important work for the task force to be doing. That can also 
provide a real deterrent effect. Making sure that we have very 
good, strong qualifications for vendors, better vetting 
process----
    Senator Vitter. I do not mean to interrupt, but what about 
with regard to peacekeeping forces and peacekeeping situations 
specifically? There are a lot of issues there and there are a 
lot of proposals regarding sex exploitation and abuses. What is 
being done specifically there to promote and demand those 
reforms?
    Mr. Hook. Well, I think the United States has taken the 
lead at the U.N. on zero tolerance for sexual abuse and 
exploitation. Prince Zeid, as you know, did his report in 2005 
after the abuses in the Congo, which are unacceptable. One 
instance is too many. And then the council adopted those 
recommendations from Prince Zeid.
    I am pleased with some of the progress we saw just in the 
last year. I mean, sometimes the council will take action like 
in this case, 2005, and they feel like the itch has been 
scratched, but we even saw some instances also of sexual 
exploitation in the context with some Sri Lankan troops.
    But even after Prince Zeid's report, then just this last 
year the General Assembly passed a new template for a 
memorandum of understanding between the U.N. and troop-
contributing countries. We already have seven that have been 
completed with TCCs. They have not been signed yet, but when 
they are signed, they will go into effect. And these revised 
MOUs do a better job, I think, of strengthening the standards 
of conduct and providing some help for victims and making sure 
that the governments are going to be following up with victims 
of sexual violence committed by peacekeepers.
    The U.N. has very little leverage on this in terms of the 
actions that it can take after the fact. But what it can do is 
restrict--there was even some talk about trying to restrict 
some of the peacekeepers from going to bars and going to places 
where you can have some of these instances which can take off 
and then lead to some sort of sexual violence.
    Senator Vitter. Again, I do not mean to interrupt, but if I 
can make a suggestion.
    Mr. Hook. Yes, please.
    Senator Vitter. As I understand it, a lot of the troop-
contributing countries are developing countries. These 
countries get far more funding per peacekeeping soldier than 
the true cost they incur by putting that person in the field--
--
    Mr. Hook. Yes.
    Senator Vitter [continuing]. The funding these counties 
receive is far greater than their soldiers' wages and all of 
the other related costs. Providing peacekeeping troops then 
becomes a significant source of cash which--particularly for a 
poor, developing country--makes peacekeeping a very attractive 
and important activity.
    What if we developed a metric that measured any problems 
with a country's soldiers with a peacekeeping deployment and 
then penalized these countries based on these problems by tying 
it to future funding and deployment? This would affect the 
future income of countries with a record of deployment 
violations because peacekeeping funds are a source of income. 
It would seem to me that you are going to get some people's 
attention very quickly if you threaten future income because it 
is an income source. In some cases, developing countries are 
dependent on that income source and find it very significant.
    Do you have any reaction to that?
    Mr. Hook. Well, I think you're right. The U.N. benefits 
from TCCs, but then TCCs also----
    Senator Bill Nelson. What are TCCs?
    Mr. Hook. I am sorry. Troop-contributing countries, TCCs in 
the U.N. parlance.
    But these troop-contributing countries also receive a 
benefit, as you said, in terms of better wages, and then they 
also get training. A lot of these missions provide good 
training for some of these countries and better training than 
they might otherwise get. One of the limitations we have seen 
in UNAMID is when Bashir had put that condition on 
predominantly African troops, a lot of these African troops 
lacked the capacity to field an effective force. And so the 
U.N. provides that training. There is a benefit that accrues to 
them.
    I think that is part of the MOU. The MOU I think that the 
G-8 passed is trying to leverage some of that.
    Punishment for perpetrators of these crimes varies from 
country to country. It would, I think, be unacceptable for 
people to be sort of given some sort of free pass when they are 
out of their country. There ought to be consequences when they 
go back home, but it is often up to the military to decide how 
to handle these sorts of violations. The U.N. gets rid of them.
    Senator Vitter. Well, again, just to be clear, what I am 
suggesting is a metric so that when there is a clear instance 
of abuse coming from troops of a certain troop-contributing 
country, then there is a penalty associated with the use of 
more of those troops from that country for the next year. That 
is a financial penalty to the government. I guarantee you in 
many instances that will instill the will and the discipline to 
have the training and whatever else is necessary to make sure 
that does not happen again simply because that military and 
government find their participation in that program very 
beneficial and do not want to lose their status as a troop-
contributing country.
    Mr. Hook. Well, Senator, let me look into that and see if 
there is a way to develop that nexus. I will follow up with 
DPKO and see if that can be explored.
    Senator Vitter. Great. Thank you.


    [The information referred to above follows:]


    Mr. Hook. The United States has been at the forefront of those 
insisting that peacekeeping troop contributing countries recognize and 
exercise their primary responsibility for preventing sexual abuse and 
exploitation on the part of their national contingents, and for taking 
prompt and effective action, in accordance with their own national 
administrative and judicial process, to deal with accusations and to 
punish the guilty.
    With our leadership, the U.N. has instituted a wide range of 
preventive and disciplinary actions to carry out its policy of zero 
tolerance of SEA by military, police or civilian personnel. In addition 
to providing pre- deployment training modules for troop contributing 
countries to use in preparing their personnel for deployment, Conduct 
and Discipline Teams (CDTs) have been established in all missions to 
train all peacekeeping personnel on standards of conduct upon their 
arrival in the mission area.
    CDTs also publicize complaint procedures to local populations and 
conduct preliminary investigations of any allegations of misconduct by 
U.N. peacekeeping personnel. When a member of a peacekeeping contingent 
is found to have engaged in misconduct, then that individual's own 
military service has the responsibility for disciplining the member. 
Typically the individual is sent home or dismissed.
    The U.N. and the troop contributing country must deal with issues 
of chain of evidence, proper investigation, and the rights of the 
accused and the accuser. We are actively discussing these issues with 
the U.N. and international colleagues. The U.N. General Assembly 
recently approved a Model Memorandum of Understanding laying out 
standards of conduct and procedures which the U.N. is using as a basis 
for negotiating new agreements with troop contributors.
    The U.S. also raises specific allegations of misconduct on a 
bilateral basis , with troop contributors.
    We believe that all of these measures can have a direct impact in 
helping the U.N. to combat sexual exploitation and abuse by U.N. 
personnel, and ensure the punishment of perpetrators.
    We are interested in the idea that withholding funding from certain 
troop contributors may assist with these efforts to combat SEA, and 
will be exploring how this proposal could be administered fairly in 
practice, and support other ongoing measures to combat SEA.


    Thank you, Mr. Chairman.
    Senator Bill Nelson. How many cases in 2008 have been 
reported of sexual exploitation and abuse?
    Mr. Hook. There were 105 allegations reported to the Office 
of Internal Oversight Services this year.
    Senator Bill Nelson. And of that number, how many have been 
investigated?
    Mr. Hook. There were 14 that have been investigated. Eight 
have been substantiated. And some were repatriated and sent 
home and some have been disciplined.
    Senator Bill Nelson. So substantiated means they were found 
guilty.
    Mr. Hook. Right. This is in OIOS. Three people have been 
repatriated and five have been disciplined.
    Senator Bill Nelson. Of the eight.
    Mr. Hook. Well, you had 105 allegations, and you had 14 so 
far----
    Senator Bill Nelson. You had 14 that were investigated.
    Mr. Hook. Right, so far.
    Senator Bill Nelson. Out of 108. Why do you think the big 
difference between 108 reported and only 14 investigated?
    Mr. Hook. I would imagine that conducting an investigation 
out in these circumstances in some of these places like in 
Congo is very hard where the evidence is very hard to come by.
    One of the things which I know is being discussed and which 
I would support--we ought to have units there in the field who 
can respond quickly to allegations of sexual violence so that 
they then can collect the evidence and preserve it because I 
think in some of these cases it is well after the fact. The 
victim is probably impossible to find. And the evidence is 
probably very thin. And this is taking place in a place like 
the Congo, which is the bloodiest war since World War II.
    But we may be able to expedite more investigations if we 
can anticipate out in the field, if we know that there are 
certain areas like in the Congo where we have had problems, 
DPKO should be maybe looking at how they can get people 
deployed there to investigate crimes and then report that back 
to OIOS so that we can have--you know, if we have 105 
allegations and we only have 14 investigations completed, those 
are numbers we need to improve.
    Senator Bill Nelson. Well, just put it in context. When my 
wife and I could not get into Darfur because the government 
would not let me in because I had been quite critical of the 
government, we went to the back door through Chad. And, of 
course, here are these refugee camps that the women are sent 
outside of the perimeter of the camp to get firewood. Now, they 
are attacked and they are attacked by the various roving bands 
that are in there. But when the women have to worry about the 
U.N. peacekeeping force being the attacker, this is absolutely 
unacceptable.
    Mr. Hook. Agreed.
    Senator Bill Nelson. Let me ask you about--are you through 
for the moment? I mean, just hop in whenever you want to.
    What is the criteria that the United States uses to decide 
for a peacekeeping mission, and how do you express that 
criteria in the Security Council?
    Mr. Hook. It was actually a PRST that the council passed in 
1994 after the tragedies in Somalia, and they set forth a 
series of factors which the council should take into account 
before it deploys a peacekeeping mission. President Clinton had 
also issued a Presidential directive, PDD 25, that also set 
forth factors, and interestingly, there was a fair amount of 
overlap between those two.
    I think that there is broad agreement on the kind of 
factors that we look at. In our case, there has to be some sort 
of international threat to peace and security. It has to 
advance U.S. interests. I think the mandate needs to be very 
clear, very well defined. And we also need to not impose a 
mandate upon a mission and not give it the resources to do the 
job. We see when that goes awry in UNAMID and the problems we 
are having there. There are other factors that are complicating 
that, obviously in the case of Darfur. Making sure that the 
forces are going to be robust enough to execute the mandate and 
they are going to have the money they need to do the mandate.
    I think there is broad agreement on the kind of factors 
that people look at, the criteria that we sort of bring to 
this. The problem comes when we have got very, very difficult 
circumstances like Darfur where a lot of these criteria are 
challenged pretty vigorously. I mean, they are pushed up to the 
limit. And you can sometimes deploy a mission. For instance, in 
the case of Darfur, President Bashir did say that he will 
permit--he unconditionally accepted the hybrid mission, and 
then after the fact, he imposes conditions.
    Now, historically peacekeeping missions have the consent of 
the host country. The very traditional U.N. peacekeeping 
missions which are blue helmets on a green line are--they want 
them to come in. It is a useful presence to keep everybody 
honest.
    But in the case of UNAMID, this hybrid operation, I think 
there will be lessons that we will take from this for years and 
years and years to come. You can actually feel like you are 
meeting your criteria when you deploy it, but then facts on the 
ground change, for instance, the host country deciding that it 
does not want it there and it is throwing all sorts of poison 
pills into the mix. That makes it hard.
    But I feel like there is general agreement on a lot of the 
criteria. I think where we would probably get into arguments is 
whether on a case-by-case basis, the facts that are relevant to 
the criteria are in fact met.
    Senator Bill Nelson. We will insert in the record this 
chart showing the 17 ongoing operations now and where they are 
in the world.


    [The chart and information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Bill Nelson. Of those, what is your favorite?
    Mr. Hook. Haiti. As I said earlier, I think Haiti is doing 
a very good job.
    We have had, I think, some success in Liberia. I think 
Liberia has met most of its benchmarks. President Johnson-
Sirleaf--we had a nice combination of sanctions that were 
there. We had timber sanctions, diamond sanctions. But we also 
had a peacekeeping force there, and it is helping a war-torn 
country make the transition to democracy.
    We have seen the same thing I think in East Timor, in 
Kosovo and, as I said, in Haiti.
    Congo--I think we are in a much better place than we were 5 
years ago with the DRC. I think 5 years ago I would not have 
said that we are in a very good place. There are a lot of 
challenges still in Congo. I do not want to overstate success 
on Congo.
    But Cote d'Ivoire--as I said, we are probably going to see 
a drawdown there.
    And then we have also places with more limited mandates 
like in Cyprus, and in the case of Cyprus, which I think is--
these are, I think, largely observers. It is a limited mandate. 
It is nothing like the multidimensional mandates we see in 
places like the Congo, in UNMIS in south Sudan, in Darfur. But 
they are accomplishing it. They do not get as much attention, 
but we think they are executing their mandate.
    Senator Bill Nelson. Let us up that next chart. Why don't 
you share with us how you justify a budget request of $1.5 
billion for fiscal year 2009 while the mission, for example, in 
Darfur is still growing? And if it is going to be fully 
deployed, it will be the largest with 25,000 troops.
    And you can see from the chart the total number of U.N. 
peacekeeping personnel on the ground, which has gone from the 
year 2000 to 2008 from 18,000 folks to 107,000.
    And you can see the assessment from the U.N. to the U.S. in 
the blue line on the chart at the right, whereas the 
administration request is far below that in each of the years 
2001 through 2008.
    So tell us why the difference.
    Mr. Hook. Mr. Chairman, as you know, our requests are made 
in the context of the constraints on the overall budget. That 
is one thing that I would say.
    You mentioned Darfur. We had originally requested--we had 
expected that it would be $884 million. In fact, it is going to 
end up being less than that because of the slower deployment.
    In a lot of these cases, as I was saying earlier, it is 
hard to predict the size of missions. For example, at the 
beginning of the year, UNMEE. UNMEE was something that we had 
budgeted for UNMEE, on July 31, is very likely going to cease 
to exist. These are missions deployed in very difficult areas 
with parties whom we cannot control, and it makes some of our 
predictions--it makes it very hard to do. There are a lot of 
variables. It is often unpredictable. We have the constraints 
of the overall budget.
    We try to keep you and your staff apprised as best we can 
on changes in terms of shortfalls. I know that my staff meets 
with your staff every month, with Senate Foreign Relations 
staff, to discuss peacekeeping operations around the world. I 
know budgets are discussed in that context. But I understand 
your frustration with what that chart illustrates.
    Senator Bill Nelson. Well take, for example, the force in 
Darfur. What is our, the United States, strategy at the U.N. 
for improving the mission?
    Mr. Hook. What is our strategy for improving the mission 
for Darfur?
    Senator Bill Nelson. With the budget that you have put out.
    Mr. Hook. Well, I am sort of looking ahead--I do not know 
if you mean in the budget context or just in terms of making it 
more effective.
    Senator Bill Nelson. Both.
    Mr. Hook. OK.
    Our preliminary estimate is higher than what, in fact, DPKO 
came back to us with. We thought it was going to be more. I 
think we were surprised it is going to be less. So that number 
has been revised.
    You have heard me say, I think, that--we were talking about 
how important it is to have the consent of a lot of these 
governments to absorb and take in a peacekeeping operation. If 
we can make progress on the political track, it is going to 
help Darfur and it is going to help UNAMID in the same way that 
we are seeing progress in southern Sudan with UNMIS. And we 
would like to see Darfur head in the same direction that 
southern Sudan did.
    For some time we have asked for a single, full-time 
mediator for the AU, and we now have one in the form of the 
Foreign Minister from Burkina-Faso, Foreign Minister Bassole. 
He is going to be full-time in Darfur. He has moved there. He 
has taken up residence there. Recently we had rebel groups 
splintering into like 25 factions. I think that is now 
somewhere around five or six. He is somebody who I think enjoys 
the respect of the parties to the conflict. He does not bring 
any baggage to, I think, the negotiating table. So we think 
that that could be useful.
    The new head of the Department of Field Services, Susana 
Malcorra, whom we have met with, did a great job at the World 
Food Program which has enormous logistical challenges. There 
was a period, during some of the worst fighting in Darfur, 
where the World Food Program was still delivering 90 percent of 
its aid to its intended beneficiaries. I think she is going to 
be very good.
    This reorganization that the Secretary General undertook to 
split the formation of military police and civilians from the 
administration and logistics piece we think is going to speed 
deployment.
    We have a lot of confidence in Malcorra.
    We have a new French head of DPKO coming in, Le Roy.
    So better efforts on the ground on the political track and 
some encouraging sort of leadership in DPKO and DFS and the 
Friends of UNAMID that we are leading. I attended the first 
meeting in March of the Friends of UNAMID. We have 14 members. 
Susana Malcorra is engaging very intensely with us, trying to 
fill a lot of these administrative and logistical gaps.
    So I am hoping the trend line is going to improve. If the 
trend line improves on the political side, it is going to help 
UNAMID. And also, the President's Special Envoy, Ambassador 
Williamson, has met with President Bashir a few times, and we 
are going everything we can on the political track because if 
you make progress there, 1,000 flowers bloom especially for the 
peacekeeping operation.
    Senator Bill Nelson. As the new Africa Command is being set 
up this fall, has it coordinated with existing U.N. efforts in 
the continent of Africa?
    Mr. Hook. Well, I think you remember when the President was 
in Africa in January, he announced $100 million to train 6,000 
African troops to deploy into UNAMID. We have already done 
3,600. A lot of these folks are ready to go. Because of the 
impediments that we are seeing by the government, it is very 
hard for UNAMID to absorb these.
    If we are going to have very robust mandates, sort of 
multifunctional peacekeeping operations, that places a real 
demand on peacekeepers from troop-contributing countries. And 
you sometimes have countries that have the will but they lack 
the capacity. And that is what the President's initiatives are 
about, trying to improve the capacity and the training. In the 
case of this GPOI and ACOTA, these are both initiatives which 
are going to pay dividends for U.N. peacekeeping operations as 
we ask them to do more in more places and take on more complex 
mandates.
    Senator Bill Nelson. My question is, is the U.S. Africa 
Command going to be stepping over the U.N. peacekeeping 
operations, or is it specifically, as it is being set up, being 
coordinated with these peacekeeping missions.
    Mr. Hook. I will have to follow up with you on that. I have 
been looking mostly at GPOI and ACOTA in terms of the UNAMID 
context. But I will be glad to follow up with you on that and 
talk about the relationship between the two.
    Senator Bill Nelson. OK. Why don't you just respond to us 
in writing on that.
    Mr. Hook. Sure, glad to.


    [The information referred to follows:]



    Mr. Hook. The creation of AFRICOM will not change the authorities, 
roles, or missions of the Department of State, the Department of 
Defense, and the United Nations with regard to U.N. peacekeeping. 
AFRICOM will work through the interagency process, as other Combatant 
Commands currently do, to coordinate with existing U.N. peacekeeping 
operations.

    Senator Bill Nelson. OK, Mr. Secretary, thank you very 
much.
    Mr. Hook. Thank you, Mr. Chairman.
    Senator Bill Nelson. We appreciate it.
    May I ask the second panel to come up? Mr. Brett Schaefer, 
who is the Jay Kingham Fellow in International Regulatory 
Affairs from the Heritage Foundation; Dr. Bill Durch, who is 
with the Henry L. Stimson Center; and Nancy Soderberg, who is a 
visiting scholar at the University of North Florida. So welcome 
to all of you.
    Each of your statements will be put in the record, and 
thank you very much.
    You are a very distinguished panel. We have heard from the 
U.S. Government witness. Why don't you all characterize for the 
committee the support that the administration has given for the 
U.N. peacekeeping missions? Does it vary mission by mission, or 
is it consistent across all the missions? Who wants to start?
    Ambassador Soderberg.

   STATEMENT OF HON. NANCY SODERBERG, DISTINGUISHED VISITING 
     SCHOLAR, UNIVERSITY OF NORTH FLORIDA, JACKSONVILLE, FL

    Ambassador Soderberg. First of all, it is nice to see you 
and thank you again for holding this hearing and having us for 
what I consider to be a very important issue.
    I think it is important to look at why we care about 
peacekeeping. I am always happy to hear a discussion about how 
we can improve the U.N., how we need more transparency and 
efficiency, but I think we need to look at the big picture. We 
need U.N. peacekeeping and they need us, and I think it is fine 
to talk about sexual exploitation and push the U.N. to be 
better, but ultimately I think we need to look at how can we 
help the U.N. do better.
    And to answer your question, I think we are beginning to 
get there, but very far from sufficient support. You have to 
remember that Osama bin Laden fled to two failed states when he 
was kicked out of Saudi Arabia. One was Sudan. The other was 
Afghanistan. We are in Afghanistan. The United Nations is now 
in Sudan. There are 17 of those peacekeeping operations on your 
chart, 11 of which are in Africa. We know al-Qaeda is monkeying 
around in Africa. We know that we are the ones with the target 
on our backs. So unless we help the U.N. get this right, we are 
going to have to do it.
    Now, U.N. peacekeeping missions are less than half the cost 
of U.S. peacekeeping missions, and we get a quarter of that 
bill. That is a lot. Nobody else gets a quarter of that bill. 
We actually get charged for 31 percent. So we are continuing to 
accrue arrears on that, and that is something this committee I 
am sure has dealt with many times. But we need to be doing 
this.
    To answer your question on AFRICOM, I have actually been 
looking into this quite a bit myself with the National Defense 
University on a project, and we did a paper, which I brought 
along for folks who are interested, and it is: What the U.S. 
Has Done and What it Should do to Support U.N. Peacekeeping. It 
is a great project over at NDU, and there are copies in the 
back for those of you who are interested.
    Senator Bill Nelson. And a copy of it will be entered in 
the record.


    [The information referred to above will be maintained in 
the committee's permanent files.]


    Ambassador Soderberg. Thank you.
    Essentially AFRICOM is a great idea and it has been poorly 
executed. There was no consultation with the Africans or the 
United Nations in setting it up. Its focus was antiterrorism, 
not peacekeeping. I think that is changing and there is a 
connection now between the two.
    In 2006, the Pentagon put in its Quadrennial Defense Review 
a commitment to do more for U.N. peacekeeping in areas of its 
expertise: Training, equipment, doctrine, things like that. And 
so there is now a real look at what the United States can do. 
It is a lot of the Pentagon doing it, frankly, and there is a 
big debate between whether it should be the Pentagon or the 
State Department doing this. But the Pentagon happens to have 
the money and so they are doing it, which is fine as long as 
someone is doing it. But that is a big debate within the 
community.
    AFRICOM I think is ideally placed to try and help move this 
forward. What they really need to do is work in partnership 
with the U.N. The first meeting between the United Nations and 
AFRICOM occurred in May, and they have committed to begin 
biannual meetings at senior levels. And I hope you will push to 
make sure that that does occur.
    When I talk to the AFRICOM officials, they have no 
Presidential directive to cooperate with the U.N. They are 
looking for one, but it has to be a Presidential directive to 
AFRICOM to cooperate with the U.N. They do not have that 
authority to do that. So they have not been able to do much. 
That was a discussion I had with them in May. I do not know if 
that has occurred or not, but that would be something this 
committee could absolutely look at.
    Senator Bill Nelson. Now, that is interesting because the 
forerunner to AFRICOM is the U.S. Southern Command where they 
are taking a diplomatic approach to a military command. And I 
have seen our commander of Southern Command work very well with 
the U.N. mission in Haiti, for example.
    Does anybody have any different information on the question 
of AFRICOM while we are on it?
    Ambassador Soderberg. They work very well. They just need 
to get there. I think they are willing to do it. They just need 
the directive. They have had a lot of problems. They do not 
have a headquarters yet. Nobody wants them. There was no 
diplomacy done before it was announced. It was announced with 
no consultation. I think they will get through that, but it is 
going to take a while. They are technically operational in 
October. They are still in Stuttgart.
    The AU on its level has a fair amount of its own problems 
as well. So they have got a few challenges ahead.
    But the most important mission for the U.N. peacekeeping 
operation right now is trying to get Africa right in the United 
States perspective because al-Qaeda is there, and unless we get 
it right--and the Pentagon recognizes this. They call them 
under- and ungoverned spaces, and essentially it means failed 
states.
    So I welcome your interest in this and I hope you can help 
promote a dialogue on what AFRICOM is doing and how----
    Senator Bill Nelson. You pointed out how many in Africa of 
the 17 were----
    Ambassador Soderberg. The last time I counted, it was 11. I 
think there are 17 on that chart.
    Senator Bill Nelson. Yes.
    Ambassador Soderberg. And I believe there are 11 of them in 
Africa. Just look at what is at risk here.
    Senator Bill Nelson. That is the reason for the question.
    So that is a message we will convey to the Department of 
Defense.
    Ambassador Soderberg. The other thing I would suggest is 
that the troops--and you get into the sexual exploitation, the 
mistakes that some of these troops have made. Ultimately it is 
up to the Africans to do their peacekeeping for themselves. The 
region's forces will go in faster. We went into Bosnia. The 
Australians went into East Timor. The Latins can take care of 
themselves, but Africans are not capable of taking care of 
themselves.
    Our training and equipping program and the State Department 
programs, ACOTA, that were mentioned on the last panel are 
terrific, but they are short-term training programs. There is 
no sustaining equipment, training. They go through a training 
program. A year later, there are no troops to deploy.
    So in my view, the challenge of the African peacekeeping 
missions is an enormous challenge for the United Nations and 
the United States, and we need to work together on it. AFRICOM 
is the place to have that coordination. I have called for a 
core group where we sit down and say, OK, let us duplicate what 
the State Department is doing with those 3,600 troops going to 
Darfur. Brazil, you take three. China, you take four. And they 
are yours for 10 years. You know, partner with them and sustain 
them. And eventually 5 to 10 years from now, the next time 
there is a Darfur that happens, you will actually have a 
contingent of peacekeepers who can get there and do the job and 
sustain themselves. But it does not exist.
    The U.N. mission was authorized a year ago at 26,000. There 
is about a third of it in the ground right now.
    Senator Bill Nelson. Mr. Schaefer, what do you think have 
been lessons learned as we have been working with this U.N. 
Department of Peacekeeping Operations?

     STATEMENT OF BRETT D. SCHAEFER, JAY KINGHAM FELLOW IN 
    INTERNATIONAL REGULATORY AFFAIRS, HERITAGE FOUNDATION, 
                         WASHINGTON, DC

    Mr. Schaefer. A couple of comments about AFRICOM before I 
start that, and that is, it is brand new. It will stand up 
fully as an independent command next fall. It, for the most 
part, inherits the area of responsibility formerly assigned to 
EUCOM, which does have a long history of working with the U.N. 
in various operations. So I am sure that relationship will 
build as AFRICOM stands up.
    I know that from talking extensively with a number of 
people about AFRICOM, that the command is strongly focused on 
trying to enhance the capabilities of African troops so that 
outside intervention from the United States or other countries 
is not necessary to the extent it has been thus far. So that is 
a concentration. That is an interest. And it has specifically 
been mentioned by General Ward and others.
    Senator Bill Nelson. Lessons learned.
    Mr. Schaefer. As far as lessons learned, what we have 
learned from a number of mistakes from various United Nations 
peacekeeping missions, unfortunate incidents in Rwanda and 
Srebrenica and Somalia and other places, is that the U.N. is 
not an organization that is capable of doing warfighting. 
Having the U.N. to go into a conflict zone where the parties to 
the conflict are not willing to have and support the U.N. 
mission or are actively continuing the conflict, is unwise 
because it makes more likely that the mission will fail or 
result in an unsuccessful outcome.
    Unfortunately, in its increasing willingness to approve 
missions in areas like Darfur where there is an ongoing 
confluct, the Security Council seems to have forgotten the 
lessons of those earlier incidents, ignore the recommendation 
of the Brahimi Report that the United Nations is not suited to 
warfighting. These decisions need to be taken with extreme care 
because it holds the potential of leading to disaster or making 
the situation worse.
    Acting Assistant Secretary Hook mentioned earlier that the 
Sudanese dictated some terms to the United Nations about how 
its involvement in Darfur specifically focused on African 
participation in the mission. That has led to significant 
constraints that undermine the mission, and we need to be aware 
of that as well. It is something that should not have been 
tolerated as a condition for U.N. participation there.
    Also, the increasing size, scope, and number of U.N. 
peacekeeping operations have revealed a number of flaws in the 
U.N. system. Senator, you pointed out the number of instances 
of sexual misconduct on the part of U.N. peacekeepers and other 
U.N. personnel. We have also seen a number of instances of 
fraud. The U.N. Procurement Fraud Task Force, which was 
mentioned earlier, conducted an investigation of U.N. 
procurement of about $1.4 billion in contracts, and they found 
that over 40 percent of those contracts had serious instances 
of corruption, fraud, or other improper involvement through the 
procurement process.
    There are also problems with the enforcement of conduct on 
peacekeepers. We need to be aware and cognizant of the 
potential for peacekeeping missteps if the U.N. Security 
Council engages in peacekeeping operations without conditions 
likely for success.
    Senator Bill Nelson. Dr. Durch.

        STATEMENT OF DR. BILL DURCH, SENIOR ASSOCIATE, 
            HENRY L. STIMSON CENTER, WASHINGTON, DC

    Dr. Durch. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak before the panel.
    I would like to go back to your initial question on 
characterizing the administration's support for U.N. 
peacekeeping looking at a list of missions and assessments and 
budget estimates going into fiscal year 2009.
    It seems like the State Department consistently 
underestimates the larger missions by as much as a third and I 
think partly because of a tendency to do best-case planning for 
these. We tend to hit the United Nations for not doing worst-
case planning in planning its own missions, and then we do 
best-case planning for our own assessments, which I think 
fairly reflect our position in the world economy. We are 
assessed extra for peacekeeping because we are a permanent 
member of the council and we can veto any mission we do not 
like. We pay about 22 percent on the regular budget, which is 
far less than our share of the whole global economy. So if we 
are talking about ability to pay, I think the payment structure 
is not so bad.
    In terms of support for U.N. operations and AFRICOM when it 
gets going, this will facilitate the United States being able 
to give in-kind support to U.N. operations in Africa, and by 
in-kind, I mean things like airlift and other logistic support. 
We have traditionally helped regional missions and the U.N. 
mission in Darfur with contractor support. That is 
traditionally going back more than a decade. And that is good. 
Now we will have the focused ability to coordinate with the 
United Nations and their missions to provide more strategic 
support as they need it, especially to move some of these 
battalions of Africans that we have trained into the mission 
area.
    It is an interesting comment on the use of mostly 
developing country forces by the United Nations for both police 
and troops. Certainly the salary structure of developing 
countries is lower than in developed states. And so they do in 
that sense get paid back more by the United Nations than they 
spend in sending forces into operations. And when they are 
trained, they should be held accountable to perform well. I 
agree on all the points that have been made on accountability.
    But equipment is equipment and fuel is fuel. And so the 
costs of maintaining and sustaining equipment, once we train 
and equip a battalion or a brigade, especially in Africa, and 
the costs of paying to operate it are something that we have to 
consider not just the initial training. So it is kind of the 
sustainability of these forces that we are investing in under 
ACOTA and under the GPOI that we need to consider with our 
allies. Where is the sustainment of these groups? If we let the 
cost fall back on national budgets, probably these forces will 
fall apart in fairly quick order, and they compete for money 
for development goals and other things that the country would 
like to accomplish, say, on the civilian side of peacekeeping.
    Senator Bill Nelson. Well, how would you rate the U.N. 
peacekeeping mission in Lebanon?
    Dr. Durch. How would I rate it, sir? Having listened to the 
discussion earlier, I would say there is a certain amount of 
retraining that could go on.
    The U.N. operation in Lebanon is, as the U.N. operation in 
Lebanon has been since 1978, much more of a traditional border 
monitoring force, even though it has got many more troops now 
than it had 2 years ago or 3 years ago. It is not a complex 
operation. It is really not about solving the region's 
problems. We do not see rockets flying back and forth between 
Hezbollah and Israel these days. That is to the good. But it 
still should be regarded as a traditional force.
    Senator Bill Nelson. What do you think about the 
interaction between the State Department's Global Peace 
Operations Initiative interacting with the U.N. peacekeeping 
operations?
    Dr. Durch. I think it is all to the good, sir. I think as 
some of my colleagues have mentioned, the investments that are 
being made in training African forces in particular pay major 
dividends when they deploy to U.N. operations because you get a 
more professional force, you get a better equipped force. As I 
said, the question would be sustaining that capability when 
they come out of the U.N. operation. When they are deployed in 
the field, the United Nations does have procedures for 
reimbursing them for equipment and paying for fuel and so 
forth. It is when they are back home that the problems arise of 
keeping these forces trained, equipped, and ready to go for the 
second and third deployments. So I think there is a very 
positive interaction between the training and the operations.
    The trouble occurs when there is resistance on the part of 
a government, as we noted with Sudan, where they simply cannot 
be deployed. And that is beyond the U.N.'s ken and it is beyond 
GPOI's reach also.
    Senator Bill Nelson. And any of you, if you had a magic 
wand to straighten out the peacekeeping operation in Darfur, 
which really needs to be done, what would you do?
    Ambassador.
    Ambassador Soderberg. I have a whole action plan on Darfur 
that is perhaps a wish list. But there are a couple of problems 
in Darfur. It starts with the Government of Sudan, whose 
President has just been indicted for war crimes. Clearly, the 
government is the one who is conducting the genocide, 
obstruction of the peace.
    But the Security Council has also gone along with that 
obstruction. It has let the Sudanese dictate the terms of this 
mission. It needs to stop doing so. That's the P5. So we need 
to get together with China, Russia, Britain, and France and 
say, no, we are not doing this. China is likely to veto that 
effort because it gets lots of oil from Sudan, billions of 
dollars a year. It also afraid that we will start poking around 
in its back yard, does not want to have interference. But we 
should be out there screaming from the rooftops that Sudan does 
not get to dictate the terms of the peacekeeping mission.
    Second, there is no peacekeeping mission. It is a number of 
poorly trained African troops who cannot sustain themselves. 
And so we need to have other troops go in until the Africans 
can be trained and equipped or send in troops ourselves. We are 
a little busy. So I would look toward the Asians and the 
Africans perhaps. Latins have terrific peacekeepers. Right now 
they are in Haiti, but there are a lot of others who are not 
particularly busy in their own hemisphere for thankful reasons.
    And we need to provide airlift, logistics, and transport 
units. You can get all the troops on the ground. If they cannot 
move and if they do not have basic sanitary conditions, places 
to sleep and food, you do not have a peacekeeping mission 
either.
    So it is essentially three things: Stand up to the Sudanese 
obstruction of this mission, not just insisting on African 
missions, but trying to determine the deployment sequence. It 
has objected to Thai and Nepalese troops. It says that certain 
troops cannot go in until the Egyptians get in and these troops 
cannot go there and these troops cannot go there, and the rest 
of the Security Council sits there and says OK. You can get mad 
at the United Nations for that, but it is the Security Council 
that has the right to stand up to Khartoum, not the U.N. So 
begin to tell Khartoum no, and that has to come from the P5. 
The Olympics has been a good leverage point to get China not to 
veto that effort.
    Second, provide the troops immediately. They have only got 
less than half ready to go.
    And third, you have got to train, equip, and sustain them, 
and the U.S. has to lead in that effort. It does not have to do 
it itself, but it has to get on the phone and say will Brazil 
do this, will Australia do it, will other countries do it. Then 
you will have a peacekeeping mission on the ground.
    Last, there needs to be a reinvigorated peace process in 
all of the crises in Sudan, not just Darfur. It was alluded to 
before. There is now finally one negotiator. So hopefully that 
effort will move forward.
    So it is a four-part process, all of which are difficult, 
by the way. I do not mean to minimize the possibilities here. 
But that is what needs to happen.
    Senator Bill Nelson. Mr. Schaefer, do you want to add to 
that?
    Mr. Schaefer. Senator, I think your last point was the most 
important one. That there must be some sort of impetus for 
reconciliation between the two sides of the conflict or the 
multiple sides of the conflict because unless you have that, 
you do not have the circumstances under which you can move 
forward toward a lasting peace. That is the heart of the 
matter. The Security Council has been unable to apply pressure 
to the government in Khartoum largely because of protection 
from China but other difficulties as well. Until pressure is 
applied, I do not see a successful outcome moving forward in 
Darfur, unfortunately.
    The other problems are significant: The constraints imposed 
by Khartoum restricting U.N. peacekeepers to African troops, 
lack of African troops with the necessary skills to fulfill 
those operations, the lack of infrastructure to support those 
troops, and the lack of other equipment as well. But the 
prospects for peace, the willingness to actually enter into a 
peace arrangement--that is the crux of the matter.
    Ambassador Soderberg. If I could just add one other point 
for the record. I did an op-ed answering that question a little 
while ago. Perhaps you could put that in the record as well.
    Senator Bill Nelson. Without objection.


    [The op-ed referred to follows:]

                [The Wall Street Journal, May 15, 2008]

                       The Way Forward on Darfur

                  (By Mia Farrow and Nancy Soderberg)

    Next month the United States will assume the presidency of the U.N. 
Security Council, and not a moment too soon. The Bush administration 
will have perhaps its final opportunity to address the Darfur genocide, 
preserving its legacy as an architect of the imperiled U.N. peace 
agreement for Sudan.
    In the past few weeks, the carnage in Darfur has escalated. 
Government bombing campaigns continue apace, with tens of thousands of 
terrified survivors joining the more than 2.5 million people already 
displaced.
    Aid workers are being targeted--the director of Save the Children 
in Chad was shot and killed at the Chad-Darfur border. A primary school 
in north Darfur was bombed, killing and wounding many children. 
Countless people in the camps are slowly dying of hunger and disease, 
yet the World Food Program has been forced to halve food rations due to 
insecurity. Just this week, the violence spread beyond Darfur to the 
outskirts of Khartoum, the capital of Sudan itself.
    Never has the need for a protection force been greater or more 
urgent. Last July, the Security Council unanimously passed a resolution 
authorizing the deployment of 26,000 peacekeepers under the U.N. 
Mission in Darfur (Unamid). But the Sudanese regime is blocking the 
deployment of the full protection force, as it has for 5 years mocked 
the international community's pleas for security.
    The U.N.-mandated force was to have been ``predominantly African in 
character.'' But Sudan has twisted the clear intention of the 
resolution, and ``predominantly'' has become ``exclusively.'' Khartoum 
has rejected offers of troop contributions from several non-African 
countries, knowing full well that most African battalions are 
undertrained and underequipped for the complex and difficult protection 
mission in Darfur.
    Just 9,000 troops are currently on the ground in various locations 
in Darfur. U.N. officials have expressed the fear that as things stand, 
peacekeepers in Darfur will be unable to protect themselves, let alone 
Darfur's tormented civilians and the humanitarians struggling to 
sustain them.
    Sudan is playing a deadly game. But there is a way to save the 
people of Darfur even under the regime's crooked rules. African nations 
willing to contribute peacekeepers need partners, nations with capable 
armies to provide training and essential logistical support. The U.S., 
the U.K., Canada, France and others have already initiated such 
partnerships. More nations need to step forward, with a commitment to 
sustain the battalions for several years.
    The U.S. should expand the effort to assemble a group of volunteer 
nations. Then, once it assumes leadership of the Security Council, it 
could host a ``Unamid pledging conference''--a meeting of troop 
contributing countries--to announce partnerships and logistical support 
for struggling African battalions. The bare-bones contributions 
necessary to stop the slaughter would be minimal: Currently, U.N. 
peacekeeping is calling for 24 helicopters, two transport units and one 
logistical unit.
    All 15 Member States of the Security Council will visit Khartoum in 
early June. This is an auspicious opportunity for the U.N. to unify in 
its commitment to the deployment of the protection force.
    China has a significant role to play here. Given its vast oil 
investments and brisk arms trade, Beijing has unparalleled influence 
with Sudan. The entry of a full protection force into Darfur would 
likely give China the international ovation it craves in the leadup to 
the Olympic Games.
    Rations of hope are meager in Darfur. But this is an opportunity 
for the international community, for the Security Council, and 
especially for the U.S. and China, to step up and protect a defenseless 
population. Will they do it?

    Ambassador Soderberg. But it kind of lays out exactly the 
answer to your question a little more eloquently than I just 
put it.
    Senator Bill Nelson. What peacekeeping operations has China 
vetoed?
    Ambassador Soderberg. Macedonia and Haiti. Macedonia 
because the new government recognized Taiwan in a failed effort 
to get substantial foreign aid from Taiwan. They vetoed it 
overnight. It was actually the best successful preventive 
deployment in history. I think it was in 1996, if I am correct. 
And it was the last substantial participation by U.S. forces in 
the mission as well. I think we had a battalion there. And it 
did prevent the Balkans from spilling over into Macedonia. 
China vetoed it right away.
    Also in Haiti, when one of the governments--again, I think 
this was in the 1990s--flirted around with Taiwan, then China--
I do not recall exactly whether they finally vetoed it or 
whether the Haitians backed off. But it is a red herring for 
the Chinese.
    Senator Bill Nelson. Because of the Olympics, has China's 
behavior been much more gold star?
    Ambassador Soderberg. Maybe a green star or a red star, but 
not Olympic star, not gold, silver, or bronze certainly.
    There are indications that the Chinese have been urging the 
Sudanese to accept the terms of the new mission. The Chinese 
have sent some engineers to the mission as a sign of 
willingness to participate. There have been some problems with 
that. But there are indications that the focus on the Olympics 
and the power of the Chinese to move the Sudanese Government 
has prompted the Chinese Government to move, but only 
incrementally. They could clearly do a lot more.
    Mr. Schaefer. I will point out that----
    Senator Bill Nelson. Yes, please.
    Mr. Schaefer [continuing]. That point of leverage is going 
away very quickly.
    Senator Bill Nelson. And how do you see it down the road?
    Mr. Schaefer. I expect China to quickly return to acting 
like China has done historically in regards to Sudan, and that 
is being an obstructionist.
    Dr. Durch. And if I may, Mr. Chairman.
    Senator Bill Nelson. Please.
    Dr. Durch. We also have to realize that the Sudanese 
Government is really playing the international community like a 
violin as long as it is not subject to substantial high level 
and economic pressure, and by that I mean not just obstructing 
the deployment of the troops in Darfur but obstructing the 
mission of the United Nations in the south. And as the 
referendum approaches in 2011 on possible independence for the 
south, I think you will see more and more activity to try and 
disrupt that referendum much as there was activity to try and 
disrupt the referendum in East Timor in 1999. So we have an 
unsettled political outcome in the south that may or may not be 
able to secede if it wishes to. We have an unsettled, basically 
no political agreement in the west, and we have a lot of oil 
sloshing back and forth.
    There was discussion earlier about not putting in a force 
where there is no peace to keep, and I basically agree with 
that. On the other hand, the international community has not 
been willing to put in a fighting force to stop a lot of 
killing and displacement in Darfur. So what is left to do other 
than wring our hands and do nothing? So the Security Council 
reaches for a peacekeeping force, even a robust peacekeeping 
force. But then it is not willing, as Ambassador Soderberg and 
Mr. Schaefer said, to put the pressure on the government to 
accept that force under the terms to which it agreed. So this 
is all very high level, global politics we are talking about, 
and it is all playing out in the Sudan.
    Senator Bill Nelson. Since China is pumping a lot of that 
oil for the Sudanese Government--so are you suggesting that 
they have to be in bed with the Sudanese Government and are 
ineffective in helping the world community to put together such 
a U.N. peacekeeping force?
    Dr. Durch. I would suggest--and my colleagues could chime 
in on this--that the Chinese Government is behaving consistent 
with Chinese interests as they define them now and in terms of 
the relative cost-benefit calculus they make about whether that 
causes them problems if they do nothing to pressure the 
Sudanese to stop the killing on the ground and admit the 
security forces. If they are not under pressure or not willing 
to pressure the Sudanese and the world is not willing to 
pressure China, I think nothing is going to change in a 
positive direction.
    Mr. Schaefer. I will add most of the oil is in the south. 
There is a referendum coming up involving independence for the 
south. That is an interesting dynamic and has led China to 
start exploring ties with the south, which may lead them to 
perhaps moderate their support for Khartoum. But it also is a 
potential source of instability if that leads to a resumption 
of the conflict between the north and the south. It is a very 
complex situation, but China is acting right now as the 
protector of the government in Khartoum, temporarily moderated 
by the Olympics situation, but I think it will quickly return 
to its historical pattern of behavior unless circumstances 
change.
    I will add that China with Russia also vetoed a sanctions 
resolution on Zimbabwe, which is a country in which they have 
far less direct interests than they do with Sudan. So they 
certainly are not shy about stopping Security Council 
resolutions to countries where they see the United Nations 
acting on internal affairs, even if they do not have strong 
national interests at stake.
    Senator Bill Nelson. Is it possible in south Sudan that 
until such a referendum would be held, that since that area 
would be ostensibly under the control of the Sudanese 
Government, that they would put the arm on China to support 
them in whatever they wanted with regard to a peacekeeping 
force since China gets its oil with an arrangement through the 
Government of Sudan?
    Mr. Schaefer. There is a U.N. peacekeeping force in 
Southern Sudan right now, that is distinct from what is going 
on in Darfur. Whether southern Sudan which operates with a fair 
amount of autonomy, is going to be motivated to act on Darfur, 
is uncertain. It depends on how they determine their interests 
there and whether they would be willing to risk what could be 
substantial consequences.
    Senator Bill Nelson. Let me ask you about this Global Peace 
Initiative that wants to train 75,000 peacekeepers primarily 
for Africa by 2010. Does this complement the U.N. peacekeeping?
    Mr. Schaefer. Absolutely. I think to the extent that the 
United States can increase the capabilities and professionalism 
of African troops, the better the African troops will be able 
to address problems in their region. The AU has shown a 
distinct inclination to try and assert its authority in the 
region, and I think it is to the best interests of the U.S. to 
try and increase their capabilities so that when a crisis does 
arise, the AU is capable of acting quickly under a U.N. 
mandate, an AU mandate or in the context of a U.N. peacekeeping 
operation. I think it is all to the better and it serves the 
interests of the United States and it serves the interests of 
African countries.
    Senator Bill Nelson. Dr. Durch, any comments?
    Dr. Durch. I actually agree with my colleague from 
Heritage. [Laughter.]
    Ambassador Soderberg. If I could just point out, though, 
from this committee's perspective on GPOI, it is a good program 
but it is wholly inadequate to the task. It is underfunded, 
understaffed, and not anywhere near broad enough. Their 
training--I am not criticizing the individuals involved. I know 
them. They are committed public servants doing as much as they 
can with the little resources that they have.
    But the United Nations today is the second largest deployed 
military in the world. You compare the Pentagon to the U.N. 
Department of Peacekeeping or even NATO headquarters and how 
many troops does NATO have in Afghanistan? I think it is under 
30,000. They have, depending on how you count it, about 100,000 
actual troops and then personnel, military, civilian is 140,000 
people, armies that they are deploying around the world with 
very few people.
    They cannot do it. There is no way the U.N. can train and 
equip these troops that you see on that map up there. The only 
way to do it is to have Member States, and the only way to get 
Member States to do it is to have the United States taking a 
much stronger leading and coordinating role in doing in it. 
Nobody else can do it but us.
    And it is not just training them like GPOI does. It is 
sustaining them, equipping, training them, and basically 
partnering with them until they can do it on their own, which 
is at least a decade away.
    So 2010--if you talk to the State Department, they will say 
they are on target to meet that. They have actually gotten the 
G-8 to endorse it at these summits that they have. The 
Europeans are helping out. Japan is actually very eager to do 
more. So on paper, they will meet it, but these are not troops 
that are ready to go into Darfur and stop the genocide.
    You asked earlier about Lebanon. Lebanon is the cadillac of 
peacekeeping operations because it has got first world armies 
capable in there, the French and others. They can fight and 
they will fight if they have to. There are other political 
problems in Lebanon but it is a good peacekeeping mission. A 
bad political situation that they are deployed into, but it is 
the only peacekeeping mission that has got a fighting force out 
there.
    Senator Bill Nelson. How big is it?
    Ambassador Soderberg. I do not know off the top of my head. 
I think it is around 17.
    Senator Bill Nelson. Oh, 12,383.
    Ambassador Soderberg. What is the date on that chart, 
though? I think that is last year. I think it has been 
increased. That is October 2007. I think it is bigger now.
    Mr. Schaefer. As of June 30, it is 12,325 troops.
    Senator Bill Nelson. Do either of you gentlemen have any 
comment? Ambassador Soderberg has already commented about the 
sexual exploitation and abuse.
    Dr. Durch. Since the stories emerged in 2004 and 2005, the 
United Nations has taken a number of steps both structurally 
and procedurally to deal with this problem. They have greatly 
increased the number of investigators in the Office of Internal 
Oversight Services. They have embedded some of these 
investigators in some of the key U.N. peacekeeping operations 
so that they have a little faster response.
    We find that the number of allegations in 2007, although 
unacceptably high, is roughly 55 percent of what it was in 
2006. So that when you have got the initial ability to take 
allegations, the numbers ballooned, and now that the system is 
in place to investigate them, we are finding that some of the 
other measures to prevent abuse I think are beginning to take 
hold. The investigations are beginning to work better, and 
there is a little bit more deterrence.
    As has been said earlier, with military forces, the 
militaries around the world take responsibility and demand 
command responsibility and discipline, as do we, for their 
forces. And the trick has been to get them to accept their 
responsibilities. As you noted, the revised memorandum that 
troop contributors are now signing contains many of these 
stipulations in it. So that is all to the good. So as countries 
rotate into new missions, more and more will be under these 
strictures.
    We have a project of our own looking at accountability of 
civilians and police in U.N. missions, and we think there 
really ought to be much improved measures for criminal 
accountability and not just administrative. Right now, the 
United Nations is limited to administrative sanctions, which 
means someone's pay is docked, they are blacklisted from 
further missions, they are fired, they are sent home, but that 
is about all that really happens to them unless their sending 
state, their state of nationality, has extraterritorial 
jurisdiction over crimes their citizens commit while abroad. 
Not too many countries do. So this is a problem in general.
    But there is a conduct and discipline unit in the 
Department of Field Support with at least a dozen members full-
time now overseeing conduct and discipline units in every major 
U.N. peacekeeping operation. So in terms of structures to 
monitor, structures to investigate, and structures to kind of 
hold troop and police contributors' feet to the fire, the 
United Nations is making some progress. Are they where they 
ought to be? No, not yet, but it is in the right direction.
    Mr. Schaefer. I will just add a couple bits to that.
    As you probably know, there have been incidents, 
accusations and findings of sexual abuse and sexual misconduct 
in virtually every peacekeeping operation around the world. The 
list includes Bosnia, Burundi, Cambodia, Congo, Guinea, Haiti, 
Ivory Coast, Kosovo, Liberia, Sierra Leone, Sudan. It is far 
too prevalent in U.N. peacekeeping operations, far more 
prevalent than it should be.
    he rules suggested by Prince Zeid were adopted in 2005, and 
the contact discipline teams have been in place on an 
increasing basis and that is welcomed. But there does not seem 
to have been the dramatic improvement that we would like to 
see. There was a report by Save the Children last year which 
concluded--and I will quote from it--``children as young as 6 
are trading in sex with aid workers and peacekeepers in 
exchange for food, money, soap, and in a very few cases, luxury 
items such as mobile phones.'' At 6 years old. That is absurd 
and appalling.
    Mr. Durch puts his finger on the problem here. The United 
Nations is somewhat limited in its ability to discipline 
peacekeepers. Basically what they can do is send them home. It 
is up to the troop-contributing countries to actually 
discipline them. The United Nations needs to be much more 
serious about this with troop-contributing countries. I would 
think that if a country shows repeated problems with sexual 
misconduct on the part of its peacekeepers, the United Nations 
should seriously consider not accepting them for future 
peacekeeping operations until they make a commitment to 
investigate, try, and prosecute as appropriate, peacekeepers 
that have been accused of crimes. I know that may impede the 
number of peacekeepers that the United Nations has available, 
but the Member States need to make sure that U.N. peacekeepers 
are protectors, not predators.
    here are some additional steps that the United Nations can 
take--and some of these have been implemented to some extent 
but not universally or completely. Every U.N. peacekeeping 
operation should embed an auditor and investigator on the 
ground to immediately investigate crimes when they are alleged 
because, as was talked about in the earlier panel, in places 
like Congo, it is not easy to go back to a scene of a crime and 
gather the evidence that you need. It is far better to have 
somebody readily available when the alleged crime took place, 
to take DNA samples and gather other evidence that may be able 
to lead to exoneration or conviction in the courts of the 
countries where the peacekeeper came from.
    The United Nations should also take this investigatory and 
this auditing element and make it truly independent. The way 
the system works right now, the OIOS is part of the U.N. 
budgetary system. In essence, they have to go to the United 
Nations and say, ``Hello, we are here to investigate you. Would 
you please provide us money to do that?'' Obviously, there is a 
conflict of interest. There needs to be an budgeting for the 
OIOS and other investigation or oversight bodies to avoid this 
type of conflict of interest.
    T4Soderberg. If I could just add one recommendation, which 
is difficult for the United States on the issue of sexual 
exploitation when it comes to minors. I personally believe that 
it should be made a crime under the International Criminal 
Court and make it universally unacceptable. Now, the United 
States has its own problems with the ICC, but it is up and 
running and it is functioning. And they are investigating and 
they are prosecuting. This is one area, particularly given the 
international problems with the U.N.'s jurisdiction issues, 
where the ICC could and should have jurisdiction over any 
international organization's sexual abuse of children in my 
view, and it should be made a crime of that serious nature.
    Senator Bill Nelson. The only thing that has been done was 
the General Assembly passed a resolution. It calls on the 
Member States to work toward prosecuting nationals for these 
crimes. That same resolution called on the Secretary General to 
name and shame countries that do not prosecute the 
perpetrators.
    So thank you for your comments.
    Final question. I am going to give you a test. You are now 
the National Security Adviser to the next President of the 
United States. And this President likes brevity, and so in one 
paragraph, advise the next President what to do about Darfur. 
We will just go right down the line, and we will go 
alphabetically.
    Dr. Durch.
    Dr. Durch. I knew that would come to haunt me some day. 
[Laughter.]
    I would advise the President to meet with the permanent 
five members of the Security Council, which includes, of 
course, China and Russia, major oil recipients from Sudan, and 
work out an agreement that they will, in fact, press the 
Government of Sudan to comply with the commitments that it has 
made, that we would, regardless of the Government of Sudan's 
responses--hopefully, they would be positive--provide airlift 
and logistic support to the UNAMID operation in Darfur. We 
would encourage NATO to do the same. They have been doing that 
for the old African mission, and that should be extended to 
UNAMID itself. And also too we would look very dimly at the 
Government of Sudan's efforts to disrupt the peace in Southern 
Sudan.
    Senator Bill Nelson. Next alphabetically is Mr. Schaefer.
    Mr. Schaefer. In my opinion the crux of the matter is the 
peace process and whether that is progressing or not. That is 
what I would focus on in advising the President. The need to 
bring pressure on both the Government in Khartoum on the rebel 
groups to try and resolve that situation. They are doing that 
to some extent, but the United States is not the primary 
driver. It is an interested party, but it cannot be the driver. 
If you are going to have a lasting peace agreement, there is 
going to have to be based on the interest of all the parties to 
resolve that situation on their own terms. There is not a whole 
lot the United States can do directly.
    To the extent of the mission, the United States can provide 
logistical support. The United States can provide some 
equipment, and the United States can do its best to try and 
train African troops to go into Darfur under the current 
circumstances. It should also seek to try and remove the 
restrictions that are impeding the current operations such as 
the restrictions on participation by non-African troops.
    Ambassador Soderberg. I would say four short-term issues 
and one multifaceted, long-term issue.
    The first is it is time to stand up to Khartoum through the 
U.N. Security Council. Every time that they obstruct something, 
there should be a public hearing and the Security Council make 
the perm rep go down and defend why he will not let the 
Egyptian battalions deploy because the Thais and the Nepalese 
have not gotten there first, whatever ridiculous issue they 
come up with. We need to tighten the sanctions not just on 
travel and visas but start looking at their oil revenues. The 
oil is the only thing that is going to get their attention. The 
ICC may but that, as we have seen with Karadzic, it takes 13 
years.
    Second, get the peacekeepers on the ground. There are not 
sufficient peacekeepers on the ground. They have offered us 
26,000. There is nowhere near that number to get them there, 
whether it is Africans or somebody else. Do not fall into this 
African-only trap that the Africans themselves have fallen 
right into. The South Africans, by the way, have not been 
progressive on this issue.
    Third, get the infrastructure on the ground. You can get 
all the troops you want, but if they cannot move, fly, sustain 
themselves, logistics, transport, and helicopters on the 
ground, you do not have a peacekeeping mission. It has to be 
robust. There is no peace to keep there. That is usually rule 
No. 1, to not put a peacekeeping mission on the ground. We have 
decided to do so. Then do so and do so robustly and quickly.
    Fourth, I will echo my colleague's comments on the peace 
process. He says it more gracefully than I can. It is the most 
important issue.
    But long-term, you have to look at peacekeeping in general. 
Darfur is a failure of the world's peacekeeping system. In 
Africa, it is broken. It works in Latin America. It works in 
Asia. It works in Europe. It does not work in Africa because 
the troops are not there. So long term we need to, first of 
all, pay on time in full. We still pay a year behind, by the 
way. You go to the Pentagon. Every Secretary of Defense hears 
about it from other troops. Why are my troops not getting paid? 
So in full, on time, which means you have got to double pay 
this bill. Try and sell that to this body, but you got to do 
it.
    And set up a core group to get the Africans up to date in 
peacekeeping missions, and that is a partnership effort, a 
worldwide partnership effort, led by the United States to 
train, equip, and sustain African troops. We are doing more 
than our fair share in that part, and the United States has 
gotten very little credit for it. But let us lead an effort in 
trying to get others to do exactly that.


    [The prepared statements of Ambassador Soderberg, Mr. 
Schaefer, and Dr. Durch follow:]

    Prepared Statement of Ambassador Nancy Soderberg, Distinguished 
    Visiting Scholar, University of North Florida, Jacksonville, FL

    First, let me thank Chairman Nelson for holding this important 
hearing and for the honor of appearing before you today. The role of 
peacekeeping is key to keeping America secure. We cannot do it alone. 
The U.N. needs us--and we need the U.N.
    A lot has changed in peacekeeping over the last 60 years. During 
the cold war, the U.N. managed 13 peacekeeping operations--back when 
that was the most boring job in the world for the U.N. soldiers--
sitting on a border where nothing ever happened.
    Well, a lot has changed since the end of the cold war--over 50 
missions, most extremely complex and today the U.N. manages nearly 
90,000 troops--the second largest military deployment in the world. 
With civilian personnel, the number is close to 110,000. And it does it 
lean--although not mean. About $7 billion a year.
    But today, peacekeeping is at risk and it is up to the 
international community to help. Far too often, UNDPKO does its job--
but the UNSC and the international community do not do theirs. If the 
international community is going to keep putting missions on the U.N.'s 
back--it has a responsibility to give it the support it needs to do the 
job right.
    I commend the subcommittee for convening this important hearing. I 
hope you will take away a plan of action to provide the U.N. the 
support it needs. Simply put, the U.N. needs a much stronger 
international support system--where capable countries partner with U.N. 
troops that need training, doctrine, equipping, and sustaining. This 
committee can play an important role in bringing such a network to 
fruition.
    The test going ahead is not to look for the U.N. to deploy in areas 
as a band-aid solution--that risks disaster. When the UNSC has 
authorized deployment of troops where there is no peace to keep--
Somalia, Rwanda, and Bosnia in the 1990s through to Darfur today--the 
U.N. fails. But when there is a peace to keep and the U.N. mission is 
well trained, equipped, and sustained--U.N. peacekeeping works. Look at 
Liberia, Sierra Leone, East Timor, and of course the Cadillac of PKO--
the reinforced mission in Lebanon.
    The world has already made great strides in conflict prevention and 
the U.N. deserves high praise for its role in that task. Today, 
however, the international community has not done its fair share in 
building up African capabilities to keep and maintain the peace. Of 17 
peace operations in the world, 11 are in Africa, with more on the 
horizon such as Somalia. But far too many of us are opting out. Of the 
90,000 peacekeepers out there, the P5 contributes only about 6,000. 
China and France are close to 2,000. Russia, the U.S., and U.K.--
between 300 and 350 each. Japan provides only 36. Those numbers may not 
change--but the level of engagement of the P5 and other capable 
countries must.

                            INTERVENTION GAP

    The West is often accused of a double standard in where it will 
intervene--meaning never in Africa. The truth is there is an 
intervention gap in Africa, but one that is largely driven by a 
capability gap. Africa does not have a mechanism for enforcement--nor 
does it have adequate peacekeeping capabilities.
    Enforcement operations as well are unevenly undertaken. With a few 
notable exceptions, such as the recent interventions by former colonial 
powers, Britain and France, in Africa and NATO's deployment to 
Afghanistan, American and European leaders share a core principle of 
sending troops into harm's way only in one's own back yard.
    For instance, the United States intervened in Haiti in 1994 and 
2004 and the Balkans in 1995 and 1999; Australia led the intervention 
into East Timor in 1999; and Nigeria intervened in 1998 in Sierra 
Leone. Only South Africa answered the Secretary General's 1999 call for 
troops in Burundi. The West will on occasion intervene in areas of 
direct impact on their national security, such as the recent deployment 
of Europeans to Lebanon and NATO's deployment in Afghanistan. And of 
course, there is the unique situation in Iraq (or at least hope will be 
unique).
    Yet, for the most part, Africa lacks capable troops to deploy 
quickly to stem violence in its own sphere of influence. To be sure, 
they are making great progress. ECOWAS has deployed in many conflicts 
and the AU has deployed in Darfur, although it lacked sufficient 
capabilities for the mission. But the Darfur deployment--even after the 
U.N. stepped in last summer--underscores the difficulties in Africa's 
ability to deploy peacekeeping missions--the forces lacks key 
capabilities of lift, equipment, communications, doctrine, and 
training. And those are the very capabilities the other regions of the 
world have--especially the U.S., NATO, and the EU--but also Latin 
Americans and increasingly Asia.
    To address that gap, nations with capable forces should build up 
such a capability in Africa that might prevent future genocides. But 
the programs to date are wholly inadequate. Both the U.S. and the G-8 
have endorsed the goal of training and equipping 75,000 peacekeeping 
troops by 2010, mostly in Africa. But the initiative is not 
sufficiently funded or supported. Troops often go through training, but 
there is insufficient equipping or ongoing training. What good is a 
battalion that has been trained, but then disbands or lacks ongoing 
training? There is some good news. On our side, the U.S. DOD has 
recently made peacekeeping a priority--in fact a core mission of its 
purpose.
    The 2006 Quadrennial Defense Review (QDR) states that ``The 
Department stands ready to increase its assistance to the United 
Nations Peacekeeping Operations in areas of the Department's expertise 
such as doctrine, training, strategic planning and management.'' Over 
the last decade, and particularly following the attacks of September 
11, the Pentagon has increasingly viewed failed states, also referred 
to as ``under- or ungoverned spaces,'' as a threat to U.S. national 
security. With that has come recognition of the importance of 
peacekeeping for U.S. interests.
    Yet, with our forces bogged down in Iraq and Afghanistan, 
significant new support will not be forthcoming in the short term. NATO 
is uniquely situated to help train and equip Africa--but it too is 
bogged down in Afghanistan. In discussing the issue with our own 
Pentagon--they do not believe NATO has the capacity to do another 
mission at the time. So, who is left?
    The EU, China, the Latins, and Asia must all do more--but we also 
can't let the U.S. and NATO off the hook. We all need to do more.
    The G-8 has put the African Action Plan on its agenda--that is a 
good sign. The U.S. has made the decision to establish a new combatant 
command in Africa--and to make it operational by October 2008. While 
the location has yet to be decided, it will provide new opportunities 
to work closely with the AU and its regional hubs to develop its own 
capabilities.
    The AU needs are vast. The AU plan involves contingents on standby 
in five regions of Africa (Eastern, Central, Southern, Western, and 
Northern) which would be available for deployment for missions ranging 
from observation to intervention against genocide. Current planning is 
for the force to be ready by 2010. Each brigade would have 
approximately 3,000 to 4,000 troops giving the AU a standby capacity of 
approximately 15,000-20,000 peacekeepers.
    That is an ambitious goal. The five regions vary greatly in 
capabilities. The Central and Northern Brigades exist only on paper. 
The Eastern Brigade, to be handled by IGAD, is not yet ready to be 
deployed, nor is the Southern one, to be handled by SADC. The most 
advanced is the Western Brigade, run by the most capable regional 
organization, the Economic Community of West African States (ECOWAS), 
made up of 15 nations formed in 1975. ECOWAS, based in Abuja, Nigeria, 
has deployed to Liberia, Sierra Leone, Guinea Bissau, Cote d'Ivoire, 
and Liberia.
    The establishment of the new USCOCOM in Africa, AFRICOM, will help 
focus the U.S. on the peacekeeping needs in Africa. Hope it can serve 
to galvanize the U.S. and others to meet the needs of African 
peacekeepers. Would be an area that Japan can explore--ways to promote 
new partnerships.
    The African Union still has many unresolved issues, including where 
to find the resources and the political will to establish the standby 
force and how the body will relate to the many regional organizations 
on the continent, as well as the EU, NATO, and the U.N. The African 
Union recognizes it needs help and is refreshingly willing to seek it.
    To address some of these needs, the U.N. should establish a 
worldwide support group of peacekeepers--a Friends Group or Core 
Group--to coordinate peacekeepers' needs and to make sure they are met. 
It is up to the international community to help the AU succeed. Japan 
is certainly well placed to play a leadership role.
    It is also important to recognize that in the wake of the crises in 
the 1990s in the Balkans and Rwanda, the world also recognized that 
responsibility to respect those at risk when the government cannot or 
will not do so. In 2005, the UNGA endorsed the R2P concept--but it has 
failed to follow through with action.
    That fact is sadly evident in Darfur where the world has failed to 
protect the population at risk. The Sudanese have refused to permit a 
more forceful peacekeeping presence than the one provided by the AU--
precisely because it is not yet ready to stop the killing. The UNSC 
caved into Sudan's insistence on a ``predominantly'' African force--
which the Sudanese have turned into an exclusively African force. Only 
one third of the authorized troops are on the ground. Good offers for 
assistance have been rejected by Sudan, and today Sudan is holding up 
the deployment of Thai troops and Nepalese support for the nonsensical 
reason that some African troops must deploy first.
    None of this is the fault of UNDPKO. It is time the UNSC stand up 
to those hindering peacekeeping. There are some useful lessons in 
Darfur that provide lessons on how to meet the new challenges of 
peacekeeping.
    There are four key steps:
    First, the U.N. Security Council must no longer let countries 
dictate the terms of the peacekeeping missions when civilians are at 
risk. It is time to move beyond the absolute right of sovereignty. In 
Darfur, it is time to stand up to Sudan. Khartoum should not be able to 
object to capable troops and engineers nor to insist on a particular 
deployment sequencing. Khartoum's preconditions on which troops can 
participate in the mission rule out some of the most capable forces.
    Second, Africa's forces must be trained, equipped, deployed, and 
sustained. The United States and others have partnered with some troops 
and those relationships must be expanded and sustained throughout the 
course of the mission. Here the U.S. should play a critical role in 
setting up a worldwide Core Group of partners who will support African 
battalions and sustain them over a multiyear effort. The goal would be 
self-sufficiency within 10 years.
    Third, the members must put a higher priority on deploying the 
mission's critical infrastructure so the force can function once on the 
ground. For instance, in Sudan, even if the troops are deployed, there 
is no infrastructure to support it. The world must provide the 24 
helicopters, two transport units and one logistical unit it urgently 
needs. Without such support, the U.N. mission cannot function. UNDPKO 
has repeatedly asked for better stockpiling of equipment. A worldwide 
effort is needed to provide this critical infrastructure. Again, Japan 
can play a critical role.
    Fourth, we must all be conscious of the risk of deploying 
peacekeepers into areas where there is no peace to keep. Today, UNDPKO 
officials are very blunt about the risks of Sudan and Somalia--no one 
wants another Black Hawk Down crisis. But that is exactly what we are 
risking today in Darfur--and certainly in Somalia
if that mission goes through. The UNSC has a responsibility to press 
for peace harder--before and during any peacekeeping mission.
    Certainly in Darfur--there is no peace to keep and the U.N. and AU 
have already lost close to a dozen soldiers. Their weapons have been 
stolen.
    There must be a renewed effort to reach peace in Sudan's three 
crises--in the south, east, and western area of Darfur. Any successful 
peace process will require the engagement of the full spectrum of 
actors, including all rebel movements and, of course, the Government of 
Sudan.
    I hope the subcommittee will take up these tasks. The United States 
will be safer and more secure if we do.
                                 ______
                                 

    Prepared Statement of Brett D. Schaefer, Jay Kingham Fellow in 
International Regulatory Affairs, Margaret Thatcher Center for Freedom, 
                The Heritage Foundation, Washington, DC

    Thank you for inviting me to speak about ``United Nations 
Peacekeeping: Challenges and Opportunities.'' My name is Brett 
Schaefer. I am the Jay Kingham Fellow in International Regulatory 
Affairs at The Heritage Foundation. The views I express in this 
testimony are my own and should not be construed as representing any 
official position of The Heritage Foundation.

                           U.N. PEACEKEEPING

    One of the United Nations' primary responsibilities--and the one 
that Americans most agree with--is to help maintain international peace 
and security, but the U.N. has come under increasing criticism, both 
within the United States and around the world, for its inability to 
keep the peace where it is asked to do so. The U.N. Charter places 
principal responsibility for maintaining international peace and 
security within the U.N. system on the Security Council.\1\ The Charter 
gives the Security Council extensive powers to investigate disputes to 
determine whether they endanger international peace and security; to 
call on participants in a dispute to settle the conflict through 
peaceful negotiation; to impose mandatory economic, travel, and 
diplomatic sanctions; and ultimately to authorize the use of military 
force.\2\ This robust vision of the U.N. as a key vehicle for 
maintaining international peace and security quickly ran athwart the 
interests of the Member States, particularly during the cold war when 
opposing alliances prevented the U.N. from taking decisive action 
except when the interests of the major powers were minimal.
---------------------------------------------------------------------------
    \1\Charter of the United Nations, Article 24, at www.un.org/
aboutun/charte.
    \2\ In matters of international peace and security, the U.N. 
Security Council was originally envisioned, unrealistically in 
retrospect, as the principal vehicle for the use of force, except for 
the inherent right of every state to defend itself if attacked, facing 
an imminent attack, or facing an immediate threat, which the Charter 
explicitly acknowledges. Charter of the United Nations, Article 51.
---------------------------------------------------------------------------
    As a result, between 1945 and 1990, the Security Council 
established only 18 peace operations, despite a multitude of conflicts 
during that period that threatened international peace and security to 
greater or lesser degree.\3\ Traditionally, Security Council 
authorizations of military force have involved deployments into 
relatively low-risk situations such as truce monitoring. The bulk of 
these peace operations were fact-finding missions, observer missions, 
and other roles in assisting peace processes in which the parties had 
agreed to cease hostilities.\4\ U.N. peace operations were rarely 
authorized with the expectation of the use of force.\5\
---------------------------------------------------------------------------
    \3\ Since 1945, there have been approximately 300 wars resulting in 
over 22 million deaths. The U.N. has authorized military action to 
counter aggression just twice: In response to the North Korean invasion 
of South Korea in 1950 and the Iraqi invasion of Kuwait in 1990.
    \4\ For example, the U.N. Truce Supervision Organization (UNTSO) 
was established in 1948 to observe the cease-fire agreements among 
Egypt, Jordan, Lebanon, Syria, and Israel and still operates today. The 
UNTSO and UNEF I missions are examples of ``traditional'' U.N. peace 
operations. Interestingly, the first venture into peacekeeping was 
taken by the General Assembly in 1956 after the Security Council was 
unable to reach a consensus on the Suez Crisis. The General Assembly 
established the U.N. Emergency Force (UNEF I) to separate Egyptian and 
Israeli forces and to facilitate the transition of the Suez Canal when 
British and French forces left. Because the UNEF resolutions were not 
passed under Chapter VII, Egypt had to approve the deployment.
    \5\ This restraint was reinforced by the U.N. venture into peace 
enforcement in the Congo (1960-1964), in which U.N.-led forces 
confronted a mutiny by Congolese armed forces against the government, 
sought to maintain the Congo's territorial integrity, and tried to 
prevent civil war after the province of Katanga seceded. According to a 
RAND Corporation study, ``U.N. achievements in the Congo came at 
considerable cost in men lost, money spent, and controversy raised. . . 
. As a result of these costs and controversies, neither the United 
Nations' leadership nor its Member Nations were eager to repeat the 
experience. For the next 25 years the United Nations restricted its 
military interventions to interpositional peacekeeping, policing cease-
fires, and patrolling disengagement zones in circumstances where all 
parties invited its presence and armed force was to be used by U.N. 
troops only in self-defense.'' James Dobbins, Seth G. Jones, Keith 
Crane, Andrew Rathmell, Brett Steele, Richard Teltschik, and Anga 
Timilsina, ``The U.N.'s Role in Nation-Building: From the Congo to 
Iraq,'' RAND Corporation, 2005, p. xvi, at www.rand.org/pubs/
monographs/2005/RAND_MG304.pdf.
---------------------------------------------------------------------------
    Since the end of the cold war, the U.N. Security Council has been 
far more active in establishing peace operations. In the early 1990s, 
crises in the Balkans, Somalia, and Cambodia led to a dramatic increase 
in missions. However, the debacle in Somalia and the failure of U.N. 
peacekeepers to intervene and prevent the 1994 genocide in Rwanda and 
or to stop the 1995 massacre in Srebrenica, Bosnia, led to a necessary 
skepticism about U.N. peacekeeping.
    With a number of troubling situations, many in Africa, receiving 
increasing attention in the media in recent years, however, the 
Security Council has found itself under pressure to respond and ``do 
something.'' The response, for better or worse, has often been to 
establish a new peacekeeping operation.
    The Security Council has approved over 40 new peace operations 
since 1990. Half of all current peacekeeping operations have been 
authorized by the Security Council since 2000. These post-1990 
operations involved a dramatic expansion in scope, purpose, and 
responsibilities beyond traditional peace operations. Moreover, these 
missions reflected a change in the nature of conflict from interstate 
conflict between nations to intrastate conflict within states by 
authorizing missions focused on quelling civil wars.\6\
---------------------------------------------------------------------------
    \6\ According to one estimate, 80 percent of all wars from 1900 to 
1941 were conflicts between states involving formal state armies, while 
85 percent of all wars from 1945 to 1976 were within the territory of a 
single state and involved internal armies, militias, rebels, or other 
parties to the conflict. See Charter of the United Nations, Article 2, 
and Michael W. Doyle and Nicholas Sambanis, ``Making War and Building 
Peace: United Nations Peace Operations'' (Princeton, NJ: Princeton 
University Press, 2006), p. 11, at www.press.princeton.edu/chapters/
s8196.pdf.
---------------------------------------------------------------------------
    This expansion of risk and responsibilities was justified by 
pointing out the international consequences of the conflict, such as 
refugees or preventing widespread conflict and instability. While such 
actions may be justified in some cases, they represent a dramatic shift 
from earlier doctrine. As a result, from a rather modest history of 
monitoring cease-fires, demilitarized zones, and post-conflict 
security, U.N. peace operations have expanded to include multiple 
responsibilities including more complex military interventions, 
civilian police duties, human rights interventions, reconstruction, 
overseeing elections, and post-conflict reconstruction.\7\
---------------------------------------------------------------------------
    \7\ The broadening of U.N. peacekeeping into these nontraditional 
missions and the mixed U.N. record in pursuit of these missions raise 
legitimate questions as to whether the U.N. should be engaged in these 
activities. Such a question is beyond the scope of this paper and is 
primarily a political question that can be resolved by the members of 
the Security Council, particularly by the permanent members. For more 
information, see John R. Bolton, ``United States Policy on United 
Nations Peacekeeping: Case Studies in the Congo, Sierra Leone, 
Ethiopia-Eritrea, Kosovo and East Timor,'' testimony before the 
Committee on International Relations, U.S. House of Representatives, 
January 21, 2000, at www.aei.org/publications/pubID.17044,filter.all/
pub_detail.asp.
---------------------------------------------------------------------------
    At the end of May 2008, there were 17 active U.N. peacekeeping 
operations and another three political or peacebuilding operations \8\ 
directed and supported by the U.N. Department of Peacekeeping 
Operations (UNDPKO). Ten of these operations, including political 
missions, were in Africa (Burundi, Central African Republic, and Chad, 
Cote d'Ivoire, Darfur, Democratic Republic of Congo, Ethiopia and 
Eritrea, Liberia, Sierra Leone, Sudan, Western Sahara); one was in the 
Caribbean (Haiti); three were in Europe (Cyprus, Georgia, and Kosovo); 
and the remaining six missions were in the Middle East (the Middle 
East, Lebanon, the Syrian Golan Heights) and in Asia (Afghanistan, East 
Timor, and India and Pakistan).
---------------------------------------------------------------------------
    \8\ U.N. Assistance Mission in Afghanistan or UNAMA, U.N. 
Integrated Office in Sierra Leone or UNIOSIL, U.N. Integrated Office in 
Burundi or BINUB.
---------------------------------------------------------------------------
    The size and expense of U.N. peace operations have risen to 
unprecedented levels. The 17 peacekeeping missions cited above involved 
some 88,000 uniformed personnel from 117 countries, including over 
74,000 troops, 2,500 military observers, and 11,000 police personnel. 
There were also over 19,500 U.N. volunteers and other international and 
local civilian personnel employed in these 17 operations. Additionally, 
over 2,000 military observers, police, international and local 
civilians, and U.N. volunteers were involved in the three political or 
peacebuilding missions directed and supported by UNDPKO.\9\
---------------------------------------------------------------------------
    \9\ United Nations Peacekeeping, ``Current Operations,'' at http://
www.un.org/Depts/dpko/dpko/currentops.shtml#africa; United Nations 
Peacekeeping, ``Monthly Summary of Contributions of Military and 
Civilian Police Personnel,'' at http://www.un.org/Depts/dpko/dpko/
contributors/; and ``United Nations Political and Peacebuilding 
Missions,'' Background Note, May 31, 2008, at http://www.un.org/Depts/
dpko/dpko/ppbm.pdf.
---------------------------------------------------------------------------
    All told, including international and local civilian personnel and 
U.N. volunteers, the personnel involved in U.N. peacekeeping, 
political, or peace-building operations overseen by UNDPKO totaled more 
than 109,500 at the end of May 2008. These operations involved the 
deployment of more uniformed personnel than were deployed by any single 
nation in the world other than the United States. (See attached Table)
    This activity has also led to a dramatically increased budget. The 
approved budget for UNDPKO--just one department in the U.N. 
Secretariat--from July 1, 2007, to June 30, 2008, was approximately 
$6.8 billion. The projected budget for U.N. peacekeeping operations is 
$7.4 billion for the July 1, 2008, to June 30, 2009, fiscal year. This 
is a 10-percent increase over the previous budget and nearly a 
threefold increase in budget and personnel since 2003.\10\
---------------------------------------------------------------------------
    \10\ Harvey Morris, ``U.N. Peacekeeping in Line of Fire,'' The 
Financial Times, May 20, 2008, at http://www.ft.com/cms/s/0/67ae1fe4-
23ac-11dd-b214-000077b07658.html.
---------------------------------------------------------------------------
    By comparison, the annual peacekeeping budget is now triple the 
size of the annualized U.N. regular biennial 2008/2009 budget for the 
rest of the Secretariat.
    In general, the U.S. has supported the expansion of U.N. 
peacekeeping. Multiple administrations have concluded that it is in 
America's interest to support U.N. operations as a useful, cost-
effective way to influence situations that affect the U.S. national 
interest but do not rise to the level of requiring direct U.S. 
intervention. Although the U.N. peacekeeping record includes 
significant failures, U.N. peace operations overall have proven to be a 
convenient multilateral means for addressing humanitarian concerns in 
situations where conflict or instability make civilians vulnerable to 
atrocities, for promoting peace efforts, and for supporting the 
transition to democracy and post-conflict rebuilding.
    The U.S. contributes the greatest share of funding for peacekeeping 
operations. The U.S. is assessed 22 percent of the U.N. regular budget, 
but is assessed over 26 percent of the U.N. peacekeeping budget. All 
permanent members of the Security Council--China, France, Russia, the 
United Kingdom, and the United States--are charged a premium above 
their regular assessment rate. However, none pay nearly what the U.S. 
is assessed. In 2008-2009, the U.N. assessment for the U.S. is just 
under 26 percent. China is assessed 3.15 percent, France is assessed 
7.4 percent, Russia is assessed 1.4 percent, and the U.K. is assessed 
7.8 percent.\11\ Thus, the U.S. is assessed more than all of the other 
permanent members combined. Japan and Germany, even though they are not 
permanent members of the Security Council, rank second and third in 
assessments at 16.6 percent and 8.6 percent, respectively.
---------------------------------------------------------------------------
    \11\ U.N. General Assembly, ``Scale Implementation of General 
Assembly Resolutions 55/235 and 55/236,'' A/61/139/Add.1, 61st Sess., 
December 27, 2006.
---------------------------------------------------------------------------
    Based on the U.N.'s July 1, 2008, to June 30, 2008, budget 
projection for peacekeeping, the U.S. will be asked to pay over $1.9 
billion for U.N. peacekeeping activities over that time.\12\ As a means 
of comparison, the 30-plus countries assessed the lowest rate of 0.0001 
percent of the peacekeeping budget for 2008-2009 will be assessed 
$7,352 based on that projection.
---------------------------------------------------------------------------
    \12\ This is, of course, a best guess on the part of the U.N. If a 
new mission is approved during the year, if a mission is closed 
unexpectedly, or if a mission does not deploy on schedule, the 
estimates would be adjusted. The U.S. is perpetually out of sync 
because it prepares its budget requests a year in advance. Shortfalls 
and other unforeseen changes are usually addressed in a subsequent or 
supplemental appropriation.
---------------------------------------------------------------------------
    Although the U.S. and other developed countries regularly provide 
lift and logistics support, many developed countries that possess 
trained personnel and other essential resources are generally reluctant 
to participate directly in U.N. peace operations. The five permanent 
members contribute a total of less than 6 percent of U.N. uniformed 
personnel. The U.S. contribution totaled 14 troops, 16 military 
observers, and 259 police. This is roughly comparable to Russia and the 
U.K., which contributed 358 and 299 uniformed personnel, respectively. 
China and France contributed more at 1,977 and 2,090 personnel.
    The top 10 contributors of uniformed personnel to U.N. operations 
are nearly all developing countries: Pakistan (10,623); Bangladesh 
(9,037); India (8,862); Nigeria (5,218); Nepal (3,711); Ghana (3,239); 
Jordan (3,017); Rwanda (3,001); Italy (2,864); and Uruguay, 
(2,617).\13\ A number of reasons account for this situation, including 
the fact that major contributors use U.N. participation as a form of 
training and income.\14\
---------------------------------------------------------------------------
    \13\ Troop contributor data are as of May 31, 2008. See U.N. 
Department of Peacekeeping Operations, ``Monthly Summary of 
Contributions (Military Observers, Police and Troops),'' at http://
www.un.org/Depts/dpko/dpko/contributors/2008/may08_1.pdf.
    \14\ According to the United Nations Foundation, ``The U.N. pays 
the governments of troop contributing countries $1,110 per soldier each 
month of deployment.'' This amount is far greater than the nations pay 
the troops participating in the missions. United Nations Foundation, 
``Season of the Blue Helmets,'' UNF Insights: New Ideas for 
International Cooperation, at www.unfoundation.org/features/
unf_insights/season_blue_helmets.asp.
---------------------------------------------------------------------------
    While the U.S. clearly should support U.N. peacekeeping operations 
when they support America's national interests, broadening U.N. peace 
operations into nontraditional missions like peace enforcement and the 
inability to garner broad international support in terms of troop 
contributions, logistics support, and funding raise legitimate 
questions as to whether or not the U.N. should be engaged in the 
current number of missions and whether these situations are best 
addressed through the U.N. or through regional, multilateral, or ad hoc 
efforts with Security Council support. Concerns are growing that the 
system for assessing the U.N. peacekeeping budget is inappropriate, 
given the far larger financial demands of this expanded role for U.N. 
peacekeeping. Such questions are primarily political questions that can 
be resolved only by the Member States.
    Outside of the political realm, however, is the fundamental 
question of whether the system as currently structured is capable of 
meeting its responsibilities. Indisputably, the unprecedented frequency 
and size of recent U.N. deployments and the resulting financial demands 
have challenged and overwhelmed the capabilities of the U.N. Department 
of Peacekeeping Operations, leading to serious problems of 
mismanagement, misconduct, poor planning, corruption, sexual abuse, 
unclear mandates, and other weaknesses. Let me highlight two notable 
problems.
    Mismanagement, Fraud, and Corruption. The U.N., as illustrated by 
the Oil-for-Food scandals and the more recent instances of 
mismanagement by UNDP in North Korea, has proven to be susceptible to 
mismanagement, fraud, and corruption. This also applies to U.N. 
peacekeeping. The Secretariat procured over $1.6 billion in goods and 
services in 2005, mostly to support peacekeeping, which has more than 
quadrupled in size since 1999. An Office of Internal Oversight Services 
(OIOS) audit of $1 billion in DPKO procurement contracts over a 6-year 
period found that at least $265 million was subject to waste, fraud, or 
abuse.\15\ The U.S. Government Accountability Office concluded:
---------------------------------------------------------------------------
    \15\ U.N. Security Council, ``Peacekeeping Procurement Audit Found 
Mismanagement, Risk of Financial Loss, Security Council Told in 
Briefing by Chief of Staff,'' SC/8645, U.N. Department of Public 
Information, February 22, 2006, at www.un.org/News/Press/docs/2006/
sc8645.doc.htm.

          While the U.N. Department of Management is responsible for 
        U.N. procurement, field procurement staff are instead 
        supervised by the U.N. Department of Peacekeeping Operations, 
        which currently lacks the expertise and capacities needed to 
        manage field procurement activities.\16\
---------------------------------------------------------------------------
    \16\ David M. Walker, Comptroller General of the United States, 
``United Nations: Internal Oversight and Procurement Controls and 
Processes Need Strengthening,'' GAO-06-701T, testimony before the 
Committee on International Relations, U.S. House of Representatives, 
April 27, 2006, at www.gao.gov/new.items/d06701t.pdf.

    In reaction to the OIOS audit, the Department of Management and the 
DPKO accepted a majority of the 32 OIOS audit recommendations for 
addressing the findings.\17\ However, a more recent report from earlier 
this year indicates that these new procedures may not be sufficient to 
prevent a recurrence of fraud and corruption. Specifically, the OIOS 
revealed earlier this year that it is investigating about 250 
corruption cases ranging from sexual abuse by peacekeepers to financial 
irregularities. According to Inga-Britt Ahlenius, head of the OIOS, 
``We can say that we found mismanagement and fraud and corruption to an 
extent we didn't really expect.'' \18\ According to the report, $1.4 
billion worth of peacekeeping contracts turned up ``significant'' 
corruption schemes involving more than $619 million, or 44 percent of 
the total value of the contracts.\19\ At the time of the report, the 
task force had looked at only 7 of the 18 U.N. peacekeeping missions 
that were operational over the period of the investigation. A 2008 
report on the audit of the U.N. mission in Sudan revealed tens of 
millions lost to mismanagement and waste and substantial indications of 
fraud and corruption.\20\
---------------------------------------------------------------------------
    \17\ U.N. Security Council, ``Peacekeeping Procurement Audit Found 
Mismanagement, Risk of Financial Loss, Security Council Told in 
Briefing by Chief of Staff.''
    \18\ Louis Charbonneau, ``U.N. Probe Into Abuse, Corruption,'' The 
Courier-Mail (Queensland), January 12, 2008.
    \19\ George Russell, ``Report Details Progress in Battle Against 
Corruption at U.N. Office,'' Fox News, October 11, 2007, at http://
www.foxnews.com/story/0,2933,301255,00.html.
    \20\ Colum Lynch, ``Audit of U.N.'s Sudan Mission Finds Tens of 
Millions in Waste,'' The Washington Post, February 10, 2008, p. A16.
---------------------------------------------------------------------------
    Worse, even the OIOS seems to be susceptible to improper influence. 
Allegations were made in 2006 that U.N. peacekeepers had illegal 
dealings with Congolese militias, including gold smuggling and arms 
trafficking. According to the lead OIOS investigator in charge of 
investigating the charges against the U.N. peacekeepers in the Congo, 
he had found the allegations of abuses by Pakistani peacekeepers to be 
``credible,'' but ``the investigation was taken away from my team after 
we resisted what we saw as attempts to influence the outcome. My fellow 
team members and I were appalled to see that the oversight office's 
final report was a little short of a whitewash.'' \21\ BBC and Human 
Rights Watch have provided evidence that the U.N. covered up evidence 
of wrongdoing by its peacekeepers in Congo.\22\
---------------------------------------------------------------------------
    \21\ Matthias Basanisi, ``Who Will Watch the Peacekeepers?'' The 
New York Times, May 23, 2008, at http://www.nytimes.com/2008/05/23/
opinion/23basanisi.html.
    \22\ BBC, ``U.N. Troops `Armed DR Congo Rebels','' April 28, 2008, 
at http://news.bbc.co.uk/2/hi/africa/7365283.stm, and Joe Bavier, 
``U.N. ignored peacekeeper abuses in Congo, group says,'' May 2, 2008, 
at http://www.reuters.com/article/featuredCrisis/idUSN02278304.
---------------------------------------------------------------------------
    Sexual Misconduct. In recent years, there have been several 
harrowing reports of crimes committed by U.N. personnel, from rape to 
the forced prostitution of women and young girls, the most notorious of 
which have involved the U.N. mission in the Democratic Republic of 
Congo. Indeed, allegations and confirmed incidents of sexual 
exploitation and abuse by U.N. personnel have become depressingly 
routine in Bosnia, Burundi, Cambodia, Congo, Guinea, Haiti, Kosovo, 
Liberia, Sierra Leone, and Sudan.\23\
---------------------------------------------------------------------------
    \23\ See Kate Holt and Sarah Hughes, ``U.N. Staff Accused of Raping 
Children in Sudan,'' The Daily Telegraph, January 4, 2007, at 
www.telegraph.co.uk/news/main.jhtml?xml=/news/2007/01/03/wsudan03.xml; 
Kate Holt and Sarah Hughes, ``Sex and the U.N.: When Peacemakers Become 
Predators,'' The Independent, January 11, 2005, at 
www.news.independent.co.uk/world/africa/article14411.ece; and Colum 
Lynch, ``U.N. Faces More Accusations of Sexual Misconduct,'' The 
Washington Post, March 13, 2005, p. A22, at www.washingtonpost.com/wp-
dyn/articles/A30286-2005Mar12.html.
---------------------------------------------------------------------------
    The alleged perpetrators of these abuses include U.N. military and 
civilian personnel from a number of U.N. Member States involved in 
peace operations and from U.N. funds and programs. The victims are 
refugees--many of them children--who have been terrorized by years of 
war and look to the U.N. for safety and protection.\24\ In addition to 
the horrible mistreatment of those who are under the protection of the 
U.N., sexual exploitation and abuse undermine the credibility of U.N. 
peace operations and must be addressed through an effective plan and 
commitment to end abuses and ensure accountability.\25\
---------------------------------------------------------------------------
    \24\ For more information on U.N. peacekeeping abuses, see Nile 
Gardiner, Ph.D., ``The U.N. Peacekeeping Scandal in the Congo: How 
Congress Should Respond,'' Heritage Foundation Lecture No. 868, March 
1, 2005, at www.heritage.org/Research/InternationalOrganizations/
upload/76028_1.pdf.
    \25\ U.S. Institute of Peace, Task Force on the United Nations, 
American Interests and U.N. Reform, June 2005, pp. 94-96, at 
www.usip.org/un/report/usip_un_report.pdf.
---------------------------------------------------------------------------
    After intense lobbying by the U.S. Department of State and U.S. 
mission to the United Nations since early 2004, as well as pressure 
from several key Members of Congress, the U.N. Secretariat agreed to 
adopt stricter requirements for peacekeeping troops and their 
contributing countries.\26\ The U.S. also helped the DPKO to publish a 
resource manual on trafficking for U.N. peacekeepers. In 2005, Prince 
Zeid Ra'ad al-Hussein of Jordan, the Secretary General's adviser on 
sexual exploitation and abuse by U.N. peacekeeping personnel, submitted 
his report to the Secretary General with recommendations on how to 
address the sexual abuse problem, including imposing a uniform standard 
of conduct, conducting professional investigations, and holding troop-
contributing countries accountable for the actions of their soldiers 
and for proper disciplinary action. In June 2005, the General Assembly 
adopted the recommendations in principle, and some recommendations have 
been implemented. For instance, contact and discipline teams are now 
present in most missions, and troops are now required to undergo 
briefing and training on behavior and conduct.\27\ Tragically, this 
does not seem to have addressed the problem adequately.
---------------------------------------------------------------------------
    \26\ See Kim R. Holmes, ``United Nations Organization Mission in 
the Democratic Republic of Congo: A Case for Peacekeeping Reform,'' 
testimony before the Subcommittee on Africa, Global Human Rights, and 
International Operations, Committee on International Relations, U.S. 
House of Representatives, 109th Cong., 1st Sess., March 1, 2005, at 
http://commdocs.house.gov/committees/intlrel/hfa99590.000/
hfa99590_0.HTM.
    \27\ U.S. Department of State, Bureau of International Organization 
Affairs, United States Participation in the United Nations 2005, 
October 2005, pp. 43-44, at www.state.gov/documents/organization/
74052.pdf.
---------------------------------------------------------------------------
    Only this past May, Save the Children accused aid workers and 
peacekeepers of sexually abusing young children in war zones and 
disaster zones in Ivory Coast, Southern Sudan, and Haiti and going 
largely unpunished. U.N. peacekeepers were most likely to be 
responsible for abuse. According to a report by Save the Children, 
``Children as young as 6 are trading sex with aid workers and 
peacekeepers in exchange for food, money, soap and, in very few cases, 
luxury items such as mobile phones.'' \28\
---------------------------------------------------------------------------
    \28\ Corinna Csaky, ``No One to Turn To: The Under-Reporting of 
Child Sexual Exploitation and Abuse by Aid Workers and Peacekeepers,'' 
Save the Children, at http://news.bbc.co.uk/2/shared/bsp/hi/pdfs/
27_05_08_savethechildren.pdf. See also BBC, ``Peacekeepers `Abusing 
Children','' May 27, 2008, at http://news.bbc.co.uk/2/hi/in_depth/
7420798.stm.
---------------------------------------------------------------------------
    However, despite this action and then-Secretary General Kofi 
Annan's announcement of a ``zero tolerance'' policy, the perpetrators 
of these crimes are very rarely punished, as was revealed in a January 
2007 news report on U.N. abuses in Southern Sudan.\29\ The standard 
memorandum of understanding between the U.N. and troop contributors 
clearly grants troop-contributing countries jurisdiction over military 
members participating in U.N. peace operations, but little is done if 
these countries fail to investigate, try, and punish those guilty of 
such crimes.
---------------------------------------------------------------------------
    \29\ According to Fox News, ``U.N. military officials have the 
power to direct the troops placed under their command, but are 
relatively powerless when it comes to punishing them if they are 
accused of crimes against humanity. There are 13 misconduct 
investigations ongoing at the Sudan mission, [and] some include sexual 
abuse. From January 2004 to the end of November 2006, investigations 
were conducted for 319 sexual exploitation and abuse cases in U.N. 
missions throughout the world. These probes resulted in the dismissal 
of 18 civilians and the repatriation on disciplinary grounds of 17 
police and 144 military personnel. . . . What's frustrating to military 
commanders on the ground is that there is little they can do to 
offending peacekeepers, other than putting them on desk duty, 
restricting them to quarters, and requesting a full investigation and 
repatriation.'' Liza Porteus, ``U.N. Peacekeepers Accused in Sudan Sex-
Abuse Case Get Reprimand,'' Fox News, January 05, 2007, at 
www.foxnews.com/story/0,2933,241960,00.html.
---------------------------------------------------------------------------
    The problems of mismanagement, corruption, and misconduct cry out 
for fundamental reform of the U.N. peacekeeping structure to improve 
accountability and transparency. However, corruption, mismanagement, 
and sexual misconduct by U.N. peacekeepers are not the only problems 
with U.N. peacekeeping. The other problem is a political problem. The 
vast expansion of U.N. peacekeeping--with the possibility of even more 
operations on the horizon like the proposal for a new Somalia mission 
with up to 27,000 peacekeepers--has led some to point out that the U.N. 
Security Council has gone ``mandate crazy'' in its attempts to be seen 
as effective and ``doing something.'' \30\ The willingness of the 
Security Council to approve missions where ``there is no peace to 
keep''--such as Darfur, Somalia, or Chad--violates a dearly learned 
lesson that U.N. peacekeepers are not war fighters.
---------------------------------------------------------------------------
    \30\ Morris, ``U.N. Peacekeeping in Line of Fire.''
---------------------------------------------------------------------------
    In general, the U.N. and its Member States had accepted the fact--
in the wake of the Somalia, Yugoslavia, Rwanda, and Sierra Leone 
missions in which there was no peace to keep--that U.N. peace 
operations should not include a mandate to enforce peace outside of 
limited circumstances and should focus instead on assisting countries 
to shift from conflict to a negotiated peace and from peace agreements 
to legitimate governance and development.\31\ As noted in the ``Report 
of the Panel on United Nations Peace Operations'' (the Brahimi Report):
---------------------------------------------------------------------------
    \31\ Doyle and Sambanis, ``Making War and Building Peace: United 
Nations Peace Operations,'' p. 20; Dobbins, Jones, Crane, Rathmell, 
Steele, Teltschik, and Timilsina, ``The U.N.'s Role in Nation-Building: 
From the Congo to Iraq,'' p. xvi; and Victoria K. Holt, testimony 
before the Subcommittee on Africa, Global Human Rights, and 
International Operations, Committee on International Relations, U.S. 
House of Representatives, May 18, 2005, at www.international
relations.house.gov/archives/109/hol051805.pdf.

        [T]he United Nations does not wage war. Where enforcement 
        action is required, it has consistently been entrusted to 
        coalitions of willing States, with the authorization of the 
        Security Council, acting under Chapter VII of the Charter.\32\
---------------------------------------------------------------------------
    \32\ U.N. General Assembly and U.N. Security Council, ``Report of 
the Panel on United Nations Peace Operations,'' A/55/305-S/2000/809, 
August 21, 2000, p. 10, at www.un.org/peace/reports/peace_operations/
docs/a_55_305.pdf.

    Yet even situations short of war that may require a U.N. peace 
operation are still rife with danger, as illustrated by the nearly 
2,500 peacekeepers that have been killed in operations since 1948. They 
also involve great demands in resources, management, and personnel. 
Indeed, it has increasingly strained the ability of countries willing 
to provide peacekeepers, especially in Darfur. Worse, this investment 
may not be helping the situation.
    Dr. Greg Mills, Director of the Johannesburg-based Brenthurst 
Foundation, and Dr. Terence McNamee, Director of Publications at the 
Royal United Services Institute for Defence and Security Studies 
(RUSI), have conducted several cases studies of U.N. peacekeeping 
operations in a chapter in a forthcoming book. They have concluded 
that, in the cases of the Democratic Republic of Congo and Lebanon, it 
is an open question whether the U.N. peacekeeping mission has 
contributed to resolving the situation or exacerbating it.

  <bullet> Mills and McNamee note that a 30-year United Nations 
        presence has failed to resolve the deep-seated problems in 
        Lebanon. The U.N. operation has failed to prevent a succession 
        of Israeli incursions. Nor was the mission able to stop 
        Hezbollah and other groups from using the Lebanese border to 
        launch raids and rockets into Israel. The 12,000-plus U.N. 
        troops currently in place following the 2006 Israeli 
        intervention have not been instructed specifically to disarm 
        the group. Ironically, Hezbollah is now in a stronger position, 
        and the U.N. mission acts as a buffer to prevent any Israeli 
        assault. Mills and McNamee note, ``The problem in Lebanon is 
        more profound than any deal-making or U.N. force can solve 
        however. It goes to the heart of reconfiguring the state and 
        its role in Lebanon.''
  <bullet> The Democratic Republic of Congo is a state in name only. 
        Decades of instability and insecurity have entrenched the view 
        in Kinshasa that anything benefiting the periphery of the 
        country is a threat. Instability is viewed as a political 
        advantage in Kinshasa because it keeps potential rivals focused 
        on each other rather than on the central government. As such, 
        Kinshasa does little to aid the U.N. effort. Despite more than 
        19,000 U.N. military and civilian peacekeepers in Congo at an 
        annual cost of over $1 billion, MONUC has not brought peace or 
        stability. Eastern Congo, bordering Rwanda, Burundi, and 
        Uganda, remains violent. According to Mills and McNamee, 
        ``Disarmament, pacification, demobilization and repatriation/
        reintegration programs could help to dilute the extent of the 
        security threat to the civilian population. But this will 
        require holding [DRC President] Kabila to task . . . removing 
        the fig-leaf of respectability to his indecision and weakness 
        in filling the vacuum with U.N. troops. But it will require 
        fundamental, root-and-branch reform, with decentralization at 
        its core.''

    In other cases, such as the U.N. missions in Cyprus and the Western 
Sahara established in 1964 and 1991, respectively, the U.N. presence is 
simply an historical palliative. The peacekeepers perform little in the 
way of keeping the peace. Nor does their presence seem to have 
contributed to the process for resolving the decades-long political 
standoff. Instead, the missions continue out of inertia and requests by 
parties to the conflict that they remain in place. It is an open 
question whether the U.N. presence has actually contributed to the 
intractability of the situation by providing the excuse not to develop 
a resolution to what is largely a political problem.
    The next administration should fundamentally reevaluate all U.N. 
operations that date back to the early 1990s or earlier--some, like 
UNTSO in the Middle East and UNMOGIP in Kashmir, date back to the 
1940s--to determine whether the U.N. is contributing to resolving the 
situation or retarding that process. These missions are generally small 
and among the least costly, but such a reevaluation would send a 
welcome message of accountability and assessment that too often has 
been lacking in the rubber-stamp process of reauthorizing peacekeeping 
operations.
    This is not to say that U.N. missions are never useful and should 
be rejected out of hand. U.N. missions have been successful in 
situations like Cambodia where it helped to restore stability following 
dictatorship and civil war. Indeed, no one wants another Rwanda, and 
the consequences of doing nothing may be unpalatable. But a long list 
of operations that have been less than successful indicates that the 
Security Council should be far more judicious when adopting decisions 
to intervene.
    The situation in Darfur is particularly relevant. The U.S. has 
called the situation in Darfur ``genocide.'' The U.N. did not come to 
that conclusion, but it did recognize the widespread human rights 
violations and suffering. After the African Union mission failed to 
curtail the violence and suffering, the U.N. adopted a resolution 
authorizing a joint AU/U.N. peacekeeping force despite ongoing conflict 
and considerable evidence that neither the rebels nor the government-
backed forces were prepared to abide by a peace agreement. Protected by 
China's veto, Sudan also demanded that the peacekeepers be African. 
This has led to a severe constraint of available troops: There simply 
are not enough trained and capable African troops to meet the demand. 
As a result, Jan Eliasson, the Secretary General's Special Envoy for 
Darfur, told the Security Council that the situation in Darfur had 
deteriorated despite the efforts of U.N. and African Union troops.\33\ 
The recent decision of the International Criminal Court to seek an 
indictment against Sudanese President Omar al-Bashir may, if approved 
by the ICC pretrial chamber, lead to further complications.
---------------------------------------------------------------------------
    \33\ U.N. News Centre, ``Darfur: U.N. Envoy Doubtful Parties Are 
Willing To Enter Serious Negotiations,'' June 24, 2008, at http://
www.un.org/apps/news/story.asp?NewsID=27149&Cr=
darfur&Crl=.
---------------------------------------------------------------------------
    In Darfur, the U.N. Security Council yielded to the pressure to 
act. Massive suffering was occurring and would likely have grown worse 
without U.N. backing and support for the AU peacekeeping effort. 
However, the Council accepted demands from Sudan that vastly complicate 
their efforts, such as restricting peacekeepers to African nations. It 
also entered a conflict situation against the lessons of its own 
experience. It compounded the error by failing to adopt clear 
objectives, metrics for success, and an exit strategy. Because of these 
failings, not to mention the potential for deterioration toward broader 
conflict or a stiffening of resolve by President Bashir if the ICC 
proceeds with its indictment, Darfur could very easily become the 
U.N.'s next spectacular failure.

                            RECOMMENDATIONS

    There are a number of steps the U.N. and the Security Council 
should adopt to address the weaknesses identified above.

  <bullet> Be more judicious in decisions to authorize U.N. 
        peacekeeping operations. The pressure to ``do something'' must 
        not trump sensible consideration of whether a U.N. presence 
        will improve or destabilize the situation, clearly establishing 
        the objectives of the operations and ensuring that they are 
        achievable, carefully planning the requirements for achieving 
        those objectives and securing pledges for providing them prior 
        to authorizing the operation, and demanding that an exit 
        strategy be included to prevent the ``perpetual mission'' 
        trap.\34\
---------------------------------------------------------------------------
    \34\ An example of this thought process that should be pursued by 
the U.S. and other countries was summarized by former Assistant 
Secretary of State Kim R. Holmes: ``While the Security Council is 
hammering out the details of a peacekeeping resolution, Member States 
work with the U.N. to figure out what that mission will require. We 
consider causes, regional equities, resources, the need for military 
forces and civilian police, the involvement of rule of law and human 
rights experts, reconstruction needs, and more. From the outset, we 
work to ensure each mission is right-sized, has a clear mandate, can 
deploy promptly, and has a clear exit strategy. This was particularly 
the case in getting peacekeepers into Haiti and expanding the mission 
in the Congo to target the main area of instability, the African Great 
Lakes region. Nevertheless, as this committee well knows, new CIPA 
requirements arise quickly. It is not possible to predict when 
conflicts will intensify to the point where they require U.N. action. 
We are cautious because, historically, U.N. missions are not as 
effective at peace enforcement, when offensive military action is 
needed to end the conflict, as they are at maintaining cease-fires and 
supporting peace agreements. But our focused analysis has helped the 
U.N. close down most of the peacekeeping missions begun during the 
early 1990s, once their jobs were done. It is helping Member States 
look for possible reductions in some longstanding missions, and press 
the U.N. to right-size or close other missions as they complete their 
mandates. The United States, in voting on peacekeeping mandates, always 
pushes for prudent mandates, force size, and missions that not only 
would succeed, but also just plain end.'' Unfortunately, this type of 
analysis in the context of Security Council authorization of U.N. 
peacekeeping operations appears to be the exception rather than the 
rule. See Kim R. Holmes, Assistant Secretary for International 
Organization Affairs, ``Statement Urging Congress to Fund Fully 
President's 2006 Budget Request for the U.N.,'' Statement Before the 
House Subcommittee on Science, State, Justice, and Commerce, and 
Related Agencies, April 21, 2005, at http://www.state.gov/p/io/rls/rm/
45037.htm.
---------------------------------------------------------------------------
      This process should also apply in reauthorization of existing 
        missions where there is often a rubber-stamp approach. If a 
        mission has not achieved its objective or made evident progress 
        toward that end after a lengthy period, the Council should 
        assess whether it is serving a positive function. In its 
        deliberations, however, the Council should recognize that 
        short, easy missions are extremely rare. When authorizing a 
        mission, the Council should recognize that it may be there for 
        a lengthy period. If the Council seems unlikely to persevere, 
        it should consider not approving the mission.
      Critically, this recommendation should not be construed as 
        implying that all U.N. peacekeeping operations should or can be 
        identical. On the contrary, differing circumstances often 
        require differing approaches. Indeed, if peacekeeping missions 
        are to be successful, the Council must be flexible in the 
        makeup and composition of U.N. peacekeeping operations or in 
        choosing to stand back in favor of a regional intervention or 
        an ad hoc coalition if those approaches better fit the 
        immediate situation. However, in the process of deciding to 
        authorize a mission, the Council should not let an 
        ``emergency'' override the prudent evaluation and assessment 
        process necessary to make sure the prospective mission has the 
        largest chance of success.
  <bullet> Transform the DPKO organizational structure to enable it to 
        handle increased peace operations demands and plan for future 
        operations more effectively. This requires more direct 
        involvement of the Security Council; more resources for staff, 
        supplies, and training; and greatly improved oversight by a 
        capable inspector general dedicated to peace operations.
      A key element of this should include transforming the DPKO to 
        incorporate greater flexibility so that it can rapidly expand 
        and contract to meet varying levels of peace operations 
        activity. Current U.N. rules do not permit the necessary 
        authority and discretion in hiring and shifting resources to 
        meet priorities. A core professional military staff must be 
        maintained and utilized, but the DPKO should also be able to 
        rely on gratis military and other seconded professionals to 
        meet exceptional demands on U.N. peace operations.\35\ This 
        would readily provide the expertise and experience needed to 
        assess the requirements of mandates under consideration, 
        including troop numbers, equipment, timeline, and rules of 
        engagement, both efficiently and realistically.
---------------------------------------------------------------------------
    \35\ According to the Secretary General, ``gratis personnel were 
not regulated until the adoption by the General Assembly of resolutions 
51/243 and 52/234, in which the Assembly placed strict conditions on 
the acceptance of type II gratis personnel. Among the conditions set 
out in administrative instruction ST/AI/1999/6, is the requirement that 
type II gratis personnel be accepted on an exceptional basis only and 
for the following purposes: (a) To provide expertise not available 
within the Organization for very specialized functions or (b) to 
provide temporary and urgent assistance in the case of new and/or 
expanded mandates of the Organization.'' See U.N. General Assembly, 
``Gratis Personnel Provided by Governments and Other Entities,'' A/61/
257/Add.1, August 9, 2006, at www.centerforunreform.org/system/files/
A.61.257.Add.1.pdf. The restrictions on gratis personnel were adopted 
at the behest of the Group of 77 developing nations, which thought that 
their nationals were not being given equal opportunity to fill 
positions at the U.N. because their governments could not afford to 
provide staff gratis. A possible solution could be to allow the 
countries to receive credit toward their assessed dues equivalent to 
the estimated salaries of gratis personnel. See ``U.N. Gratis Personnel 
System Is Undemocratic, Says G-77 Chairman,'' Journal of the Group of 
77, January/February 1997, at www.g77.org/Journal/janfeb97/6.htm.
---------------------------------------------------------------------------
  <bullet> Build up peacekeeping capabilities around the world, 
        particularly in Africa, and further develop a U.N. database of 
        qualified, trained, prescreened uniformed and civilian 
        personnel available for U.N. operations. The U.N. has no 
        standing armed forces and is entirely dependent on Member 
        States to donate troops and other personnel to fulfill peace 
        operation mandates. This is appropriate. Nations should 
        maintain control of their armed forces and refuse to support 
        the establishment of armed forces outside of direct national 
        oversight and responsibility. However, the current arrangement 
        results in an ad hoc system plagued by delays; inadequately 
        trained personnel; insufficient numbers of military troops, 
        military observers, civilian police, and civilian staff; 
        inadequate planning; inadequate or nonfunctional equipment; and 
        logistical gaps.\36\
---------------------------------------------------------------------------
    \36\ Operations in the Democratic Republic of the Congo, Cote 
d'Ivoire (Ivory Coast), Lebanon, and Darfur all recently experienced 
difficulties in raising the numbers of troops authorized by the 
Security Council.
---------------------------------------------------------------------------
      The U.N. has established a Stand-by Arrangements System (UNSAS), 
        wherein Member States make conditional commitments to prepare 
        and maintain specified resources (military formations, 
        specialized personnel, services, material, and equipment) on 
        ``stand-by'' in their home countries to fulfill specified tasks 
        or functions for U.N. peace operations.\37\ This is their 
        prerogative, but the resources committed under the UNSAS fall 
        short of needs. To speed up deployment on missions, the U.N. 
        would be well served to further develop a database of 
        information on individuals' and units' past experience in U.N. 
        operations; disciplinary issues; performance evaluations; 
        expertise (e.g., language, engineering, and combat skills); and 
        availability for deployment. In addition, U.S. efforts under 
        the Global Peace Operations Initiative (GPOI) contribute 
        significantly to bolstering the capacity and capabilities of 
        regional troops, particularly in Africa, to serve as 
        peacekeepers through the U.N. or regional organizations like 
        the African Union.\38\
---------------------------------------------------------------------------
    \37\ U.N. Department of Peacekeeping Operations, ``United Nations 
Standby Arrangements System (UNSAS),'' April 30, 2005, at www.un.org/
Depts/dpko/milad/fgs2/unsas_files/sba.htm.
    \38\ The State Department budget request includes a request for 
$106 million for GPOI in FY 2009, up from $81 million in FY 2007. Most 
of the funds for GPOI, including the African Contingency Operations 
Training and Assistance program (ACOTA), go to Africa-related programs. 
According to the budget, ``Funding in FY 2009 is intended to train over 
15,000 peacekeeping troops to reach the initiative goal of 75,000 
peacekeeping troops trained worldwide.'' See U.S. Department of State, 
Congressional Budget Justification Foreign Operations Fiscal Year 2009, 
p. 113, at http://www.state.gov/documents/organization/101368.pdf.
---------------------------------------------------------------------------
  <bullet> Implement a modern logistics system and streamline 
        procurement procedures so that missions receive what they need 
        when they need it. To be effective, procurement and contracting 
        must ``have a formal governance structure responsible for its 
        oversight and direction,'' as former Under Secretary General 
        for Management Catherine Bertini advised Congress in 2005.\39\ 
        Critically, the new logistics system and the procurement system 
        must be subject to appropriate transparency, rigorous 
        accountability, and independent oversight accompanied by robust 
        investigatory capabilities and a reliable system of internal 
        justice.\40\
---------------------------------------------------------------------------
    \39\ Catherine Bertini, former U.N. Under Secretary General for 
Management, statement in hearing, ``Reforming the United Nations: 
Budget and Management Perspectives,'' Committee on International 
Relations, U.S. House of Representatives, 109th Cong., 1st Sess., May 
19, 2005, at www.commdocs.house.gov/committees/intlrel/hfa21309.000/
hfa21309_0.htm.
    \40\ U.S. Government Accountability Office, ``United Nations: 
Procurement Internal Controls Are Weak,'' GAO-06-577, April 2006, at 
www.gao.gov/new.items/d06577.pdf.
---------------------------------------------------------------------------
      The new restructuring of UNDPKO into a Department of Peacekeeping 
        Operations and a Department of Field Support, as proposed by 
        Secretary General Ban Ki-moon and approved by the General 
        Assembly, does not appear to have substantially improved 
        peacekeeping procurement. This may be due to the fact that the 
        new department did not receive requested positions or budget, 
        but it also appears to be a case of a ``paper reform'' rather 
        than an actual reform. Most of the same people remain in place, 
        and it is uncertain that tasking or procedures have changed.
  <bullet> Implement mandatory, uniform standards of conduct for 
        civilian and military personnel participating in U.N. peace 
        operations. If the U.N. is to take serious steps to end sexual 
        exploitation, abuse, and other misconduct by peacekeepers, it 
        must do more than adopt a U.N. code of conduct, issue manuals, 
        and send abusers home. It should not necessarily involve 
        yielding jurisdiction over personnel to the U.N. or non-
        national judicial authority, but it should entail commitments 
        by Member States to investigate, try, and punish their 
        personnel in cases of misconduct.
      Investigators should be granted full cooperation and access to 
        witnesses, records, and sites where alleged crimes occurred so 
        that trials can proceed. Equally important, the U.N. must be 
        more willing to hold member countries to these standards. 
        States that fail to fulfill their commitments to discipline 
        their troops should be barred from providing troops for peace 
        operations.

                               CONCLUSION

    Today's hearing is very pertinent. U.N. peacekeeping is being 
conducted at unprecedented pace, scope, and ambition. Unsurprisingly, 
this activity has revealed numerous flaws, limitations, and weaknesses 
inherent in U.N. peacekeeping.
    Problems with U.N. peacekeeping are serious and need to be 
addressed, and the administration and Congress need to consider 
carefully any requests by the United Nations for additional funding for 
a system in which procurement problems have wasted millions of dollars 
and sexual abuse by peacekeepers is still occurring. Without 
fundamental reform, these problems will likely continue and expand, 
undermining the U.N.'s credibility and ability to accomplish one of its 
primary missions--maintaining international peace and security.
    U.N. peacekeeping operations can be useful and successful if 
entered into with an awareness of the limitations and weaknesses of 
U.N. peacekeeping. This awareness is crucial, because there seems 
little indication that the demand for U.N. peacekeeping will fall in 
the foreseeable future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

   Prepared Statement of Dr. William J. Durch, Senior Associate, the 
                Henry L. Stimson Center, Washington, DC

                              INTRODUCTION

    Mr. Chairman, members of the committee, I am honored to be invited 
to testify before this subcommittee. I am a senior associate at the 
Henry L. Stimson Center, where I codirect the Future of Peace 
Operations program, which focuses on modern challenges for peacekeeping 
internationally. Stimson is an independent research center that 
develops practical policy solutions to pressing international security 
problems, including the problems faced by United Nations peacekeeping 
operations. United States support for these operations has never been 
more important and the challenges that they face have never been more 
daunting.
    Peace seems like it ought to be self-enforcing, but the most 
peaceful states are those with effective police--and fair laws, 
competent courts, and consent of the governed. States emerging from 
civil war usually have none of these. Sustaining whatever fragile peace 
they initially achieve may require outside help, and that help may be 
needed for several years. In 1995, for example, the North Atlantic 
Treaty Organization (NATO) poured 60,000 troops into Bosnia to cement 
the Dayton Accords; today, 2,300 troops and police remain, under 
European Union (EU) command. So the effort is less but the presence 
remains. Other places where peacekeepers go are much bigger and more 
dangerous than Bosnia was when NATO deployed there. Bosnia itself was a 
very dangerous place before U.S. pressure and NATO air strikes brought 
its own civil war to a halt, a war where U.N. peacekeepers had earlier 
been deployed with neither the power nor the mandate to create and 
sustain peace. Yet that earlier operation was authorized by unanimous 
votes of the U.N. Security Council, votes in which the United States 
participated; votes that helped to discredit U.N. peacekeeping in the 
West for the remainder of the 1990s, because they sent U.N. forces into 
dangerous combat environments with which the United Nations cannot 
cope.
    In this decade, the U.N. found its feet once again as major reforms 
in how peacekeeping is managed and mandated began to take hold. But in 
recent years, and especially the past 12 months, the Security Council 
has again begun to overuse its tools, with the result that U.N. 
peacekeepers find themselves in situations better suited to combat 
forces. One of the lessons of the 1990s is that peacekeepers must be 
able to defend themselves and their mandates when subject to violent 
tactical challenge, but such challenges must be balanced by high-level, 
political acceptance of the U.N.'s presence. The Democratic Republic of 
Congo (or DRC) is one such dangerous place where the U.N. nonetheless 
has the support of the elected government and works closely with it 
against various violent opponents of the peace, especially in this 
large country's lawless east. Darfur, Sudan, on the other hand, is a 
dangerous place where the government gives little more than lip service 
to the U.N. presence and does everything it can to delay and obstruct 
its deployment, up to the possible use of proxy forces to attack U.N. 
personnel.
    Most peace operations in difficult places struggle to attract the 
manpower and funds they need to create real change over time. The 
United Nations promotes stability in the DRC, for example, with one-
third as many troops as NATO started with in Bosnia, spread over an 
area six times as large that is teeming with well-armed and vicious 
militias. At the end of May, the U.N. deployed 88,000 troops and police 
globally. Few of those deployed in its toughest operations (which are 
mostly in Africa) come from developed states, which are the U.N.'s 
major funders. Not only are in-kind contributions to U.N. operations 
from these states rather rare but late payments keep U.N. operations 
perennially underfunded. At the end of May, 11 months into its 
peacekeeping fiscal year, the U.N. was still short $1.6 billion on a 
$6.8 billion peacekeeping budget. In one of life's greater ironies, the 
U.N. may not borrow funds to cover that shortfall, a rule enforced by 
the most indebted government on the planet: Our own.
    As imperfect as the United Nations may be, people around the globe 
understand, accept, and applaud most U.N. actions. Compared to regional 
organizations and ad hoc coalitions, the U.N. has both broader 
political legitimacy, greater political reach, and a deeper logistics 
network supporting both humanitarian relief and peace operations--a 
network that leans heavily on private sector service providers. But the 
United Nations also needs consistent U.S. political, financial, and 
material support to makes its operations work. Each of these is well 
worth strengthening.
    Early in the next administration, the President should begin that 
strengthening process by:

  <bullet> Affirming that the United States and the United Nations 
        share common goals in expanding the writ of human rights and 
        realizing human dignity, which in turn requires international 
        peace and individual human security.
  <bullet> Offering strong support--in cash and in kind--to every U.N. 
        peace operation for which it casts its vote in the Security 
        Council, setting an example for others by promptly contributing 
        the U.S. share of U.N. peacekeeping costs.
  <bullet> Supporting the continued restructuring and strengthening of 
        U.N. headquarters offices that plan and support peace 
        operations.
  <bullet> Pledging strong and sustained U.S. diplomatic and political 
        support to U.N. peacekeeping operations, especially in volatile 
        states and regions.
  <bullet> Promising temporary U.S. military support, in collaboration 
        with its NATO Allies, for U.N. operations that experience 
        trouble from local spoilers or terrorist action.
  <bullet> Continuing to train foreign peacekeepers, contingent on 
        their governments' willingness to discipline troops who violate 
        international humanitarian law.
  <bullet> Announcing that the United States will expand its own 
        capacity to contribute to the nonmilitary elements of peace and 
        stability operations.

           A BRIEF HISTORY OF PEACE AND STABILITY OPERATIONS

    Contemporary peace operations got their start after World War II, 
when some 200 unarmed military observers wearing U.N. armbands 
patrolled cease-fire lines between India and Pakistan and armistice 
lines around the new state of Israel.\1\ Six decades later, 110,000 
troops, police, and civilian personnel in 20 U.N. missions on four 
continents use presence, persuasion, and modern weapons to support the 
rebuilding of peace under tough conditions. The African Union-United 
Nations ``hybrid'' mission in Darfur (UNAMID) will, when fully 
deployed, drive that total near 130,000. NATO manages a further 50,000 
peacekeepers in Kosovo and Afghanistan, the EU manages 2,300 in Bosnia, 
and the African Union (AU) managed about 7,000 in Darfur through the 
end of 2007, when that force merged into UNAMID. Washington has 
authorized, endorsed, or supported all of these operations through its 
votes in the U.N. Security Council or on NATO's North Atlantic Council.
---------------------------------------------------------------------------
    \1\ Some peacekeeping missions still deploy along international 
borders: Between Israel, Egypt, Lebanon, and Syria, for example, or 
between Ethiopia and Eritrea. Some keep the peace within split but 
relatively stable states like Bosnia and Herzegovina, with its largely 
separate Serb and non-Serb populations, and Cyprus, where the ``Turkish 
Republic of Northern Cyprus'' is recognized only by Turkey but backed 
by 36,000 Turkish troops. Most peace operations, however, deploy within 
states that are rather less stable, with recently ended wars that no 
local party was strong enough to win. Note that the counterinsurgency 
wars in Afghanistan and Iraq are not included in this tally, as they 
far exceed reasonable definitional limits of peace/stability 
operations. For discussion, see William J. Durch and Tobias C. Berkman, 
``Who Should Keep the Peace?'' (Washington, DC: Stimson Center, 
September 2006), pp. 1-5.
---------------------------------------------------------------------------
    In the past 2 years, in fact, the United States has supported a 
substantial increase in the size, use, and deployment of U.N. 
peacekeeping around the globe, including:

  <bullet> A new peacekeeping mission in Somalia;
  <bullet> A sevenfold expansion of the U.N.'s peacekeeping mission in 
        Lebanon;
  <bullet> The fourfold expansion of the peacekeeping mission in 
        Darfur;
  <bullet> Reauthorization of the U.N.'s large peacekeeping missions in 
        Haiti and Liberia;
  <bullet> A renewed peacekeeping mission for East Timor; and
  <bullet> New missions in Chad, the Central African Republic, and 
        Nepal.

    Peacekeeping today costs $10 to $12 billion annually, not including 
counterinsurgency in Iraq or Afghanistan. The U.N.'s peacekeeping 
budget accounts for just over half of that total and Washington pays 
for roughly one-quarter of the U.N. peacekeeping budget.
    The costs of U.N. peacekeeping operations are prorated among Member 
States according to a ``peacekeeping scale of assessment,'' which is 
based on states' shares of the regular U.N. budget. The five permanent 
members of the Security Council each pay a 20-percent larger share of 
peacekeeping costs than they do of the U.N. regular budget, given their 
special responsibility under the U.N. Charter for international peace 
and security, and because they can veto any operation they dislike. 
U.N. operations, as currently conducted, are a relative bargain for 
their major funders, costing less than one-fifth of what they would 
cost if conducted exclusively by the funders' own military forces.
    The costs of other peacekeeping missions are borne primarily by the 
troop contributors. NATO and the EU collectively fund mostly minor 
``common costs'' for their missions. Occasional subsidies from wealthy 
states allow less-wealthy states to send troops to non-U.N. operations. 
Substantial outside cash and in-kind support (airlift and civilian 
contractors) have enabled the AU, for example, to deploy and support 
its observer force in Darfur.

                 THE CASE FOR INTERNATIONAL COOPERATION

    In deciding how best to defend themselves and their interests, all 
states face tough policy choices. Small, poor states have few options 
and often find their choices dictated by others. Big, rich states have 
more choices--but each choice comes with consequences. America can act 
on its own in many matters of peace and security, but there are times 
when acting in concert--through coalitions, alliances, regional 
groupings, or global institutions--is not only useful but necessary, 
because even a superpower has finite resources, as the U.S. experience 
in Iraq and Afghanistan continue to demonstrate. And where resources 
needed to shore up the peace can be found among many implementing 
partners and organizations, smart engagement argues for leveraging 
those resources to accomplish common goals and to better manage hard 
problems multilaterally.
    The United States has found it increasingly cost-effective and 
politically helpful to lean on other states and organizations to help 
it advance shared strategic interests in international peace, security, 
justice, and prosperity. The available forms of collaboration have 
complementary strengths: Coalitions of the willing are better at 
suppressing violence but typically lack staying power and means of 
joint finance. Regional organizations have greater legitimacy and 
cohesion when working within their regions but risk losing both when 
they venture farther afield. The U.N. cannot handle full-scale combat 
since it lacks both full control over the forces it receives and the 
cohesion of the best alliances and coalitions, but what it lacks in 
combat power, the U.N. makes up for in its legitimacy and staying 
power.
    Compared to regional organizations and ad hoc alliances of states, 
the U.N. has greater political reach and a deeper network supporting 
humanitarian relief as well as peace operations. Those who think of the 
U.N. system as desk-bound should witness its fieldwork firsthand, since 
more U.N. staff members work in field postings than in headquarters. 
Peacekeeping operations are supported by a global system of financial 
assessments that enable the U.N. to tap the strengths of the private 
sector, with more than 100 ``systems contracts'' in place for essential 
mission support.
    Given the growth in this area, it is a sure bet that the next 
administration will face serious questions of resource allocation 
regarding the U.N. and global peace and stability operations.

             COPING WITH GROWTH IN PEACEKEEPING OPERATIONS

    In the face of explosive growth in U.N. peacekeeping over the past 
decade, the first question is whether the world, and the United States 
in particular, are providing sufficient resources to support this 
growth--which they have promoted. The answer to this question would 
have to be ``no.'' The surge in U.N. peacekeeping has not been met with 
steady funding, by commensurate increases in the number of staff in the 
U.N. Department of Peacekeeping Operations (DPKO), or in the number of 
troops or police volunteered to the U.N. by its richest members for the 
U.N.'s toughest missions. The result has been forces of highly variable 
professionalism. In the past 3 years, the U.N. has asked states to take 
back hundreds of troops and police as investigations have implicated 
them in sexual abuse and exploitation of local populations.
    The United States chronically underbudgets its share of U.N. 
peacekeeping costs, even as it votes for more and expanded peacekeeping 
missions on the Security Council. As of February 2008, the U.S. had 
built up $1.2 billion in essentially permanent prior-year debt for U.N. 
peacekeeping and was likely to fall at least another $500 million short 
in its peacekeeping dues for 2007-08.\2\
---------------------------------------------------------------------------
    \2\ Better World Campaign (BWC), ``FY 2009 Budget Request: Growing 
Debt to the United Nations and Peacekeeping,'' fact sheet, February 
2008. BWC estimate.
---------------------------------------------------------------------------
    Beyond this challenge, ever since operations in Somalia (1992-93), 
the United States has declined to provide troops for the riskier U.N. 
peacekeeping forces. The Force Commander and majority of U.N. forces in 
Haiti (1995-96) were American but the last U.S. military unit to serve 
in a U.N.-led mission came home in 1999. Subsequent U.S. 
nonparticipation means that our government has no military commanders 
in any current U.N. field missions and dwindling institutional memory 
of how U.N. operations work. U.S. contributions of police officers to 
U.N. operations also has dwindled in this decade, from 849 in December 
2000 to 230 this June.
    The second big question is whether the world and the United States 
are lining up the right kinds of capabilities to meet the world's needs 
in the peace and stability arena. In peace operations, the military's 
real exit strategy is successful peacebuilding, or ``transition and 
reconstruction.'' This involves many tasks--from arranging and 
supervising elections, training novice lawmakers, and jump-starting 
economic activity to rebuilding police forces and promoting independent 
judiciaries--all tasks for which armed forces are poorly suited or 
totally inappropriate. Successful peacebuilding, and therefore a 
successful exit strategy, require complementary civilian capacity 
working alongside the military.

         WHAT WASHINGTON SHOULD DO: RECOMMENDATIONS FOR ACTION

    As U.N. peacekeeping's largest and most influential donor, the U.S. 
Government, under a new administration, should make it clear, very 
early on, that it supports an effective U.N. that, in turn, supports 
international peace and security in irreplaceable ways--not as a tool 
of U.S. policy but as a venue for leveraging scarce funds and people 
toward a just public order that improves people's lives and contributes 
to our national security.
    Early in the new term, while the U.N. Special Committee on 
Peacekeeping Operations is in session, the President should set out the 
following principles and policy goals:

  <bullet> Affirm that the United States and the United Nations share 
        common goals in expanding the writ of human rights and 
        realizing human dignity, which in turn requires international 
        peace and individual human security. The majority of U.N. 
        Member States are poor, less than free, and often difficult to 
        deal with. As a global institution, the U.N. includes the 
        world's worst human rights offenders but also its strongest 
        human rights proponents. Moreover, the U.N. Charter and the 
        Covenant on Civil and Political Rights reflect Western values 
        on a global stage. The General Assembly regularly votes budgets 
        for peace operations that Washington sees fit to support in the 
        Security Council, and those budgets are cleared first by a 
        committee of 16 states on which the United States has nearly 
        always had a strong voice. The U.N. system also provides a wide 
        range of services through its operational agencies that work 
        beyond the realm of high politics and security, in food aid, 
        refugee support, human rights support, global public health, 
        vaccinations against childhood diseases, and nuclear 
        nonproliferation.
  <bullet> Offer strong support--in cash and in kind--to every U.N. 
        peace operation for which it casts its vote in the Security 
        Council and set an example for others by promptly contributing 
        the U.S. share of U.N. peacekeeping costs. The U.N. is 
        precluded from borrowing to finance its operations, so when the 
        Security Council votes to support a mission, the U.N. must rely 
        on Member States' payments toward the mission's ``assessed'' 
        budget to get things underway. The administration frequently 
        underbudgets for U.N. peacekeeping operations, and the Office 
        of Management and Budget in recent years has cut State 
        Department requests, making it up later with ``supplemental'' 
        requests. This sleight-of-hand approach means that money 
        shortages have driven U.S. dealings with the U.N. on matters of 
        peace and security that should have been driven by U.S. 
        interests. Even U.N. missions launched with urgent U.S. backing 
        may not receive U.S. funds for months unless they can hitch a 
        ride on a timely supplemental in the Congress. U.S. delays 
        encourage other member nations to hold back funds. The bottom 
        line? Mission deployments slow down to match the flow of funds, 
        jeopardizing the people, places, and peace they are intended to 
        protect.
  <bullet> Support the continued restructuring and strengthening of the 
        U.N. headquarters offices that plan and support peace 
        operations. Secretary General Ban Ki-moon proposed, and the 
        General Assembly approved, splitting the Department of 
        Peacekeeping Operations into two parts, one (which keeps the 
        old name) that is focused on policy, strategy, and planning, 
        and another (the Department of Field Support) that is focused 
        on finance, personnel, logistics, and communications. The 
        General Assembly also agreed to add 287 staff to U.N. 
        Headquarters support of peacekeeping, bringing the total New 
        York staff to about 1,200, to manage up to 130,000 personnel in 
        the field. Its cost, together with that of the U.N.'s main 
        peacekeeping logistics base at Brindisi, Italy, is 5 percent of 
        the U.N.'s peacekeeping budget. It is difficult to find any 
        other agency (or company) in defense and security that runs on 
        5 percent overhead.
  <bullet> Pledge strong and sustained U.S. diplomatic and political 
        support to U.N. peacekeeping operations, especially in volatile 
        states and regions. Every successful peace operation has had 
        the strong support of at least one great power. Such support 
        does not guarantee success, but its absence is a near guarantee 
        of failure.
  <bullet> Promise temporary U.S. military support, in collaboration 
        with its NATO Allies, for U.N. operations that experience 
        trouble from local spoilers or terrorist activities. In spring 
        2000, in Sierra Leone, Britain turned a noncombatant evacuation 
        operation into a mini-counterinsurgency campaign against the 
        armed gangs who had threatened both the country's fragile peace 
        and a wobbly U.N. peacekeeping operation. Most of the British 
        troops withdrew within 4 months, leaving behind a training 
        mission to rebuild Sierra Leone's army. The U.N. operation 
        restructured itself and ended up doing a creditable job, 
        withdrawing in 2005. In 2004, in Haiti, U.S. armed forces led a 
        coalition of the willing that preceded a U.N. operation, 
        instead of serving in parallel. There is no good reason why 
        such U.S. deployments could not be made in parallel, however, 
        as Britain and the EU have done, should a U.N. operation run 
        into trouble.
  <bullet> Continue training foreign peacekeepers, contingent on their 
        governments' willingness to discipline troops who violate 
        international humanitarian law. The U.S. supports the G-8s 
        Global Peace Operations Initiative, which aims to train 75,000 
        peacekeepers, primarily in Africa, by 2010. This is a valuable 
        program worth sustaining and extending, but it could also be 
        used to give the U.N. better leverage over troop-contributing 
        states whose troops commit crimes while on U.N. duty. The U.S. 
        Government should tie continued assistance under this and 
        similar initiatives to recipients' demonstrated willingness to 
        discipline troops who violate their own military codes of 
        justice or U.N. standards of conduct while serving in U.N. 
        operations.
  <bullet> Announce that the United States will expand its own capacity 
        to contribute to the nonmilitary elements of peace and 
        stability operations. This includes police personnel, political 
        advisors, and civilian substantive experts who specialize, for 
        example, in infrastructure repair, human rights, or de-mining. 
        In the past 2 years, the U.S. Government has taken important 
        steps toward the goal of building its nonmilitary capabilities 
        for stabilization and reconstruction. The next administration 
        should reinforce this nascent interagency process for 
        recruiting, training, and deploying civilian personnel, acting 
        on the knowledge that effective ``transition and 
        reconstruction'' programs are the best exit strategy for 
        peacekeepers--our own and everyone else's.

                 LIVES AND LEADERSHIP: BOTH ON THE LINE

    For nearly half a century, Washington was the recognized leader of 
the free world, earning that distinction by investing in and protecting 
the freedom of others. In the new century, as in the last, alternatives 
to Western-style liberty and self rule are being offered to--or forced 
upon--peoples in Asia, Africa, Latin America, and the borderlands of 
Europe, especially in countries recently torn apart by war. Preserving 
liberty and fostering democracy among such countries is critical to 
America's interests. It is too big a job for any one country to 
shoulder alone, but by working with allies and institutions like the 
U.N., we can share that burden and earn back the respect of the world.

    Senator Bill Nelson. Thank you very much.
    Well, since that was a test, you all get an A. And the 
meeting is adjourned.


    [Whereupon, at 4:51 p.m., the hearing was adjourned.]


              Additional Material Submitted for the Record


   Additional Questions Submitted for the Record to Acting Assistant 
       Secretary of State Brian Hook by Senator Richard G. Lugar


    Question. I understand that the U.N. is considering increasing the 
delegation of procurement authority to peacekeeping missions from the 
current $250,000 (U.S.) to $1,000,000 and on occasion $2,000,000. This 
would permit heads of missions to forego headquarters approval and 
require only the approval of the Local Committee on Contracts (LCC), on 
which the heads of missions typically also sit. Please explain why this 
policy is being contemplated when reports of procurement violations 
persist, particularly in missions in the Congo and Sudan.

    Answer. The delegation of procurement authority is currently 
$200,000 for non-core requirements and $1,000,000 for core 
requirements. Core requirements are items such as construction 
materials. Non-core requirements are items needed for specific projects 
(with the exception of pharmaceutical and information technology 
products).
    The U.N. Secretariat has proposed an increase to the financial 
threshold of the delegation of procurement authority from $200,000 to 
$500,000 for non-core requirements, and from $1 million to $2 million 
for core requirements, to bring the threshold into line with the 
operational requirements of peacekeeping missions.
    There are certain core needs common to all peacekeeping operations 
and for which detailed contract specifications are already available, 
but going through Headquarters can be a slow process. When there is an 
urgent need to procure goods or services, the current limit of $200,000 
for delegation of procurement authority may not be sufficient.
    Without question, the proposed increase in the delegation of 
authority must have adequate controls to prevent fraud, waste, and 
abuse. To provide appropriate oversight, the Secretariat has proposed 
that the Headquarters Committee on Contracts (HCC) increase its 
monitoring of local procurements. Furthermore, to enhance 
accountability in the procurement service, approximately 700 
procurement staff, requisitioning officers, and Local Committees on 
Contracts (LCCs) underwent extensive training on procurement 
procedures, best practices, and ethics from Spring 2007 to Summer 2008. 
The Procurement Division has also issued a strategic paper on 
procurement training providing for the continuing training of 
procurement staff in the organization, including training leading to 
internationally recognized procurement certification.


    Question. What measures are being put in place to ensure bid 
collusion and rigging do not occur between vendors and Department of 
Peacekeeping officials?
    Please provide information relating to instances of U.N. 
procurement officials that were found to have steered contracts to 
specific vendors. Who were the employees, what were their 
nationalities, who where the companies, what nationalities, what were 
the contracts for, were they signed, what punishments or penalties were 
meted out to the contracting officials and vendors?

    Answer. Regarding allegations of collusion or corruption in the 
awarding of contracts, we do not comment on individual cases which are 
part of ongoing investigations or judicial proceedings. However, the 
Procurement Task Force (PTF) of the Office of Internal Oversight 
Services (OIOS) issues detailed reports on its findings. The PTF 
reports include much of the information that you have requested 
including the names of procurement officers, companies, their 
nationalities, and the recommended dispositions. Please find attached a 
summary report submitted by OIOS that covers the activities of the PTF 
over the past 18 months.
    The reports include, among others, two highly-publicized cases 
involving contract fraud by U.N. officials. In the Yakovlev case, a 
supervisory procurement officer accepted $3.5 million in bribes over a 
period of 20 years for steering accounts to vendors in 11 different 
countries. In the Bahel case, an official with responsibility for 
overseeing procurement actions steered at least eight contracts with an 
aggregate value of $100 million to various vendors over the course of 
five years.
    The General Assembly has asked the Secretary-General to report on 
all issues related to the levels of delegation of procurement 
authority, including mechanisms used to strengthen effective 
monitoring, oversight, and accountability. The Procurement Division 
makes field visits to peacekeeping operations to identify and report on 
performance, weaknesses, and areas of risk.
    A wide-ranging procurement reform program proposed by the 
Secretary-General in May 2006 (A/60/846/Addendum 5) has, to date, 
achieved 80 percent of its stated objectives. The Procurement Division 
is coordinating with other U.N. offices, including the Office of Legal 
Affairs and the Office of Human Resource Management, to implement the 
remaining reform elements.
    In order to foster integrity and ethical conduct, in 2006 the U.N. 
Secretariat established an Ethics Office with a mandate that includes 
the development of ethics training and policy for staff throughout the 
organization. Given the fiduciary nature of their responsibilities, the 
organization has placed special emphasis on accountability of 
procurement officials. The Procurement Division is developing an ethics 
training program, in collaboration with the Ethics Office and the 
Office of Human Resource Management. This program is mandatory for all 
Procurement Division staff. The module on ethics and integrity was 
integrated into the fundamental procurement training which was provided 
to approximately 700 staff members working at Headquarters and in the 
field.
    The U.N. Secretariat has introduced a number of measures designed 
to prevent such abuses as bid collusion and rigging. These include (1) 
a financial disclosure program which is mandatory for procurement staff 
in order to identify potential conflicts of interest and to monitor the 
financial interests of staff, their dependents and spouses; (2) an 
enhanced policy on post employment restrictions; (3) strict segregation 
of duties throughout the procurement process; and (4) strengthening of 
measures to preserve the confidentiality of information.
    In addition, the United States has been working with other Member 
States and the U.N. Secretariat to improve the vendor registration 
process so that violators of the U.N. supplier code of conduct are 
disqualified from bidding. Finally, the independent bid protest system, 
once fully operational, will promote greater fairness and transparency 
in the awarding of contracts.


    Question. Does the U.N. specifically list the steering of contracts 
to specific vendors as a violation of procurement regulations? If not, 
how is the U.S. Mission working to correct this?

    Answer. The U.N.'s Financial Regulations and Rules establish 
"effective international competition" as one of the key principles of 
U.N. procurement; this principle is cited in the Procurement Manual. 
Any exemption from effective competition requires a special waiver by 
the Assistant SecretaryGeneral/Controller, that is only granted with 
strong justification. Adherence to the principle of effective 
international competition is also fostered through training in the 
fundamentals of procurement, ethics, and integrity.


    Question. Please describe measures in place to prevent a vendor who 
was barred from one U.N. agency or peacekeeping mission from being able 
to bid on contracts in another agency or mission.

    Answer. Information about vendors who have been suspended or 
removed by any U.N. agency is incorporated into the U.N. Global 
Marketplace (UNGM), the central sourcing portal for procurement in the 
U.N. system. In addition, within the context of the High Level 
Committee on Management-Procurement Network (HLCM-PN), an initiative is 
being developed to ensure that decisions on suspension or removal of 
defaulting vendors are observed by the Secretariat as well as by all 
U.N. agencies, funds, and programs. The next HLCM-PN meeting addressing 
this issue will be held in Rome in early September, seeking final 
consensus on this principle.


    Question. I understand that the OIOS Procurement Task Force is 
scheduled to be disbanded in December. How does the administration plan 
to prevent that from happening?

    Answer. We strongly support the work of the Procurement Task Force 
(PTF). During negotiations last fall on funding the PTF, members of the 
Group of 77 and China, in particular Singapore, called for limiting the 
PTF's mandate to six months. This would have meant a premature end to 
the PTF's work. At the time, the PTF had 289 open cases, including more 
than 40 complex investigations. Furthermore, the PTF would have found 
it difficult to retain its investigators if funding was limited to six 
months. Considering that the PTF had already exposed 10 different 
schemes to defraud U.N. procurements that had tainted over $610 million 
in contracts and resulted in the misappropriation of more than $25 
million, it was imperative that the General Assembly approve the full 
funding, and we worked with other Member States to extend the mandate 
through 2008. After much deliberation, the General Assembly adopted 
resolution 62/234, which extended the PTF mandate through December 31, 
2008.
    The United States will continue to engage other Member States on 
ensuring that the Office of Internal Oversight Services (OIOS) has 
adequate capacity to investigate allegations of fraud and corruption in 
the procurement service. The great number of procurement investigations 
demonstrates the clear need for the capacity to look into this 
particularly vulnerable sector of the U.N. Secretariat now and in the 
future. In December 2007, OIOS outlined a plan to integrate the PTF, 
its positions, and its caseload into the regular work of the OIOS 
Investigations Division. That proposal will be considered by the 
General Assembly's Fifth Committee in the fall, and we will press for 
approval of permanently integrating the PTF into the OIOS 
Investigations Division.


    Question. On June 29, the Washington Post reported on a meeting 
between Assistant Secretary Jendayi Frazer and U.N. Secretary-General 
Ban Ki-moon. According to the article, during the meeting Assistant 
Secretary Frazer urged the Secretary-General to renew the contract of 
Rwandan General Emmanuel Karenzi Karake, the deputy force commander of 
the United Nations-African Union Mission in Darfur (UNAMID). The 
article reports that General Karake has been charged by a Spanish 
magistrate with responsibility in the killings of thousands of ethnic 
Hutus during the mid-1990s.

          a) Does the Washington Post report accurately characterize 
        Assistant Secretary Frazer's meeting with Secretary-General 
        Ban? If not, please indicate what Assistant Secretary Frazer 
        said to Secretary- General Ban about whether General Karake 
        should continue to serve with UNAMID.

          b) What is the administration's position as to whether 
        General Karake should continue to serve with UNAMID? Please 
        indicate the reasons for this position.

          c) What assessment has the administration made of the 
        credibility of the charges against General, Karake referred to 
        in the Washington Post article? What steps has the 
        administration taken to determine whether these charges are 
        credible?

          d) How does the administration assess General Karake's 
        performance to date as deputy force commander of UNAMID?

    Answer.

          a) Contrary to the June. 29 Washington Post article, 
        Assistant Secretary Frazer did not meet with nor discuss 
        General Karake with UNSYG Ban Ki Moon, although she did meet 
        with the U.N.'s Department ofPeacekeeping Operations (UNDPKO) 
        to discuss, inter alia, the situation in Sudan and the urgent 
        need for increased peacekeepers given the conditions on the 
        ground in Darfur. In that context, she shared the substance of 
        Rwanda's communications about Karake, in which they expressed 
        their strong advocacy for renewal of his contract.

          b) The Department of State is firmly committed to a strong 
        UNAMID and has worked extensively with African partners and the 
        United Nations to generate the provision of experienced 
        commanders and the deployment of additional troops. In that 
        context, we have expressed concern about any action that might 
        create additional obstacles to efforts to enhance UNAMID or 
        jecipardize steps already taken. We believe that removing a 
        qualified commander at a key juncture-in UNAMID's deployment 
        would undermine UNAMID's efficacy and mission.

          c) The Department is aware of a number of allegations with 
        respect to Karake's involvement in or connection to crimes 
        committed in Rwanda and DRC between 1994 and 2000. The 
        Government of Rwanda vigorously disputes those allegations. We 
        are also aware of the indictments issued by the independent 
        Spanish magistrate and theincluded allegations of General 
        Karake and others. We understand the Government of Rwanda and 
        the Government of Spain are in communication on this matter. 
        The U.S. did not have information at the time of General 
        Karake's appointment that corroborated the allegations, and 
        therefore did not call for a rejection of Karake's candidacy. 
        Should new information corroborating the allegations come to 
        light, the U.S. will again examine the issue.

          d) Karake has shown that he is an active, experienced, and 
        capable officer within UNAMID.

                                  <all>

</pre></body></html>
